<html>
<title> - IRAQ: AN INDEPENDENT ASSESSMENT</title>
<body><pre>[Senate Hearing 110-489]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-489
 
                    IRAQ: AN INDEPENDENT ASSESSMENT

=======================================================================




                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED TENTH CONGRESS



                             FIRST SESSION



                               __________

                           SEPTEMBER 4, 2007

                               __________



       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html





                     U.S. GOVERNMENT PRINTING OFFICE

44-321 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 JOHN E. SUNUNU, New Hampshire
BARACK OBAMA, Illinois               GEORGE V. VOINOVICH, Ohio
ROBERT MENENDEZ, New Jersey          LISA MURKOWSKI, Alaska
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHNNY ISAKSON, Georgia
JIM WEBB, Virginia                   DAVID VITTER, Louisiana
                   Antony J. Blinken, Staff Director
            Kenneth A. Myers, Jr., Republican Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lugar, Hon. Richard G. Lugar, U.S. Senator from Indiana, opening 
  statement......................................................     4
Walker, Hon. David M., Comptroller General of the United States, 
  U.S. Government Accountability Office, Washington, DC..........     6
    Prepared statement...........................................     9
    Responses to questions submitted for the record by Senator 
      Richard G. Lugar...........................................    47

                                 (iii)



                    IRAQ: AN INDEPENDENT ASSESSMENT

                              ----------                              


                       TUESDAY, SEPTEMBER 4, 2007

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:05 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John Kerry, 
presiding.
    Present: Senators Kerry, Feingold, Menendez, Casey, Lugar, 
Hagel, Coleman, and Corker.

  OPENING STATEMENT OF HON. JOHN F. KERRY, U.S. SENATOR FROM 
                         MASSACHUSETTS

    Senator Kerry. Good afternoon, this hearing of the Foreign 
Relations Committee will come to order. I appreciate Mr. Walker 
coming before the committee today for this very important 
beginning of a series of analyses that will be made over the 
course of the next weeks with respect to our policy in Iraq.
    This is obviously crunch time, an important time for the 
country, for Iraq, for our soldiers, and for the American 
people, and for all of the interests that are at stake here.
    September has been much talked about, much awaited, and now 
it's here. And so, we're prepared to look carefully and 
diligently, and, I know, thoughtfully at all of the issues that 
are on the table before us.
    I appreciate your willingness to adjust your schedule to 
testify today, and needless to say, you can tell from the 
presence of the committee here already, that the committee is 
deeply interested in the conclusions, and in your analysis.
    The GAO has happily earned the reputation for objective, 
factual analysis. And it's something that has been tragically 
in short supply in Washington, and particularly in short supply 
with respect to the debate over Iraq--before the war, during 
the war, and even today as the occupation extends into its 
fourth year.
    That is precisely why Congress asked for this nonpartisan 
assessment on whether the 18 key benchmarks for measuring 
political security and economic progress--as originally agree 
to by the Iraqi Government in June 2006--have been met. Let me 
emphasize that. We are here to measure whether that which the 
Iraqi Government itself promised to achieve, has been achieved. 
And, I might add, that your conclusion is an important one, and 
one that's going to be much thought-about here.
    In your report, securing, stabilizing, and rebuilding Iraq, 
in a headline on the front page, it says the Iraqi Government 
has not met most legislative, security and economic benchmarks. 
So, that assessment--needless to say--is at odds with some 
other trial balloon assessments that have been floated in 
recent days, and hopefully we can establish here, some kind of 
benchmark ourselves, as to what it is we ought to be measuring.
    Let me emphasize, I think I do this in a bipartisan way on 
behalf of all of our committee members. We're not looking for a 
Democrat, we're not looking for a Republican, we're not looking 
for a liberal or a conservative outlook here. We're looking for 
the truth, we're looking for the facts, and we're looking for 
the best policy for the United States of America, and that 
means the best policy for our troops, and for our interests in 
the region. And we obviously all want those interests to 
dovetail with the interests of the people who live in that 
region. That's when you have the best foreign policy.
    That's why Congress asked for this report, on these 18 
benchmarks. And we're seeking, here, to get an accurate picture 
of where we are in Iraq, and of where we go from here.
    But as I said, it is inescapable, unavoidable to ignore the 
bottom line conclusion of your report, which says that the 
Iraqi Government has met 3, partially met 4, and did not meet 
11 of its 18 benchmarks. Overall, key legislation has not been 
passed. Violence remains high. It remains unclear whether the 
Iraqi Government will spend $10 billion in reconstruction 
funds. In other words, only 3 of these 18 benchmarks have 
actually been met, as we meet here.
    And I want to emphasize one other point. We keep hearing 
some folks talking publicly about whether some particular 
tactical deployment of a number of troops in Anbar, or some 
other particular province, has been successful. I think 
everyone has acknowledged that it is possible, with an increase 
of troops in a particular small area to gain some kind of 
tactical advantage. That is not what is at issue here.
    The fundamental purpose of the escalation was to give the 
Iraqi Government the breathing room to make the decisions 
necessary to be able to achieve the benchmarks. And when we see 
that, even after its full implementation, those benchmarks are 
as far from being reached as they are, it is hard to draw any 
assessment, except there is a failing grade for a policy that 
is still not working.
    This conclusion appears to contrast with, at least some, 
aspects of what we're heard as interim assessments of the 
benchmarks. Those delivered to Congress in July, which found, 
and I quote, ``That satisfactory progress had been made in 
meeting 8 of the 18 benchmarks.'' In particular, there seems to 
be some disagreement over whether the security situation has 
actually improved, whether the Iraqis have provided the three 
brigades required for the Baghdad security plan, and whether 
the Iraqis are meeting their commitments with respect to 
spending reconstruction funds.
    I would also emphasize that we recognize the difference 
between making progress, and actually meeting benchmarks. And 
these discrepancies, nevertheless, raise questions about the 
information that we're receiving from other sources about the 
war in Iraq.
    We also need to be certain that the GAO received the full 
cooperation and support of the Department of Defense and the 
White House in preparing this report. One thing we all agree on 
is that the escalation did have this one single, simple goal: 
To create breathing room for Iraqis themselves to make the 
political compromises that will hold their country together and 
end their civil war.
    Even the White House acknowledges that there is no American 
military solution to an Iraqi civil war. Yet still, despite the 
obvious lack of movement on political reconciliation, we keep 
hearing that we're making progress in Iraq.
    The reality, as explained by your report, and supported by 
the consensus view of our 16 intelligence agencies, compiled 
jointly in the most recent national intelligence estimate, is 
that there's been no meaningful progress on meeting the key 
political benchmarks. In fact, your report concludes that the 
Iraqis met only one of the eight benchmarks for political 
progress, and that was protecting the rights of minorities in 
Iraq's legislature, and partially met one other.
    The Iraqis have not yet agreed on the key issue of amending 
the Constitution, and crucial legislation on de-Baathification, 
oil revenue-sharing, provincial elections, amnesty, and militia 
disarmament, which has still not been enacted.
    The GAO is not alone in these conclusions. Your findings 
echo last month's National Intelligence Estimate, an 
independent assessment which concluded that the overall level 
of violence remains high, the level of political progress has 
been negligible, and that ``the Iraqi Government will become 
more precarious over the next 6 to 12 months.''
    We can see the unsettling news in Iraqi politics with our 
own eyes--15 of the 37 members of the Iraqi Cabinet have now 
withdrawn their support, making it exceedingly difficult to 
imagine how the national reconciliation efforts of the Shiite-
dominated government will be improving in the near future, 
though we obviously hold out hope that it will.
    All summer, supporters of the escalation have urged us to 
wait until this moment. Wait until September, give the 
escalation a chance. Wait until September to hear from General 
Petraeus and Ambassador Crocker. Well now, September is here, 
the President has just visited, and we anticipate those reports 
in the next days.
    But the result already on the table is, I hate to say it, 
probably as predictable as it was 3, or even 6 months ago, 
before hundreds of additional Americans gave their lives.
    The administration has somehow varnished over its own 
goals. It seems to be unwilling, chronically, to be able to 
meet, even, its own goals. And each time, we hear a sort of 
shift in analysis, with the rationale, ``This is what we were 
trying to do all along. This is what really mattered,'' as we 
shift from what had been previously stated as what really 
mattered.
    The fact is that mistake after mistake has been met, not 
with a changed policy, but with a changing rationale.
    The White House, we know, badly wants our fellow Americans 
to lose sight, perhaps, of some of the original purposes of the 
original decisions that we've made. But we, here in the 
Congress, need to remember it, as we listen to what is now 
going to be promised, or now assessed. And it has to be 
measured against those past assessments and past rationales.
    Particularly when we look at the promises that were made 
from this table here in this room, as well as in the Hart 
hearing room, as well as in the Dirksen room below, all three 
of them--I can remember the Secretary of State, and/or other 
major players--promising us that we were right around the 
corner, moments away from any one of the benchmarks being 
achieved, that still have not been achieved to this date.
    Just yesterday, the President reiterated the same old line, 
that some U.S. forces may eventually be withdrawn if conditions 
improve, when it has long been clear that setting a 
redeployment deadline is the key to improving those conditions.
    So, we reach this new moment of reckoning with the long-
awaited Petraeus report. And I hope no one will be surprised 
that the report will, no doubt, have significant political 
input, not just military and strategic input.
    The White House has again, and again--I regret to say--
avoided the kind of important, plain, unadorned, discussion of 
facts; facts with are intractable. And it is important to face 
these facts as you have today, Mr. Walker, in this testimony, 
Comptroller Walker.
    It is also important, I think, all our colleagues on this 
committee want to avoid seeing goal posts moved, yet again. 
That is not what this should be about.
    So, many of us have expressed our concern about the 
sacrifice being made by American troops, which they are called 
on to make, again and again, contrary to what the facts on the 
ground are telling us, as a matter of policy. We need reports, 
like this one from the GAO, to help lay out what is really 
happening, and to help force policymakers in Washington to take 
responsibility in order to take action. We cannot continue to 
ask Americans to die for a policy that can't work, or that is 
based on a shifting rationale. And your important testimony 
today will help us understand whether we're facing that, or 
not.
    Senator Lugar.

 OPENING STATEMENT OF HON. RICHARD G. LUGAR, U.S. SENATOR FROM 
                            INDIANA

    Senator Lugar. Thank you very much, Mr. Chairman, and I 
join you in welcoming Mr. Walker.
    The GAO has provided, over the years, excellent analysis on 
Iraq, and we appreciate having the benefits of the Agency's 
expertise.
    This benchmark survey is the second in a series of reports 
arriving in Congress that attempt to measure political, 
economic, and military conditions in Iraq. Such assessments are 
essential for Congress and the American people as we evaluate 
the complex circumstances and policy options we face with 
respect to United States involvement in Iraq.
    During the last several months, the debate over Iraq and 
the interpretation of reports, such as the one we examine 
today, have been afflicted by partisan calculation. As Congress 
absorbs the critical information on Iraq that we will receive 
in the coming weeks, I am hopeful we will be broad-minded in 
our analysis. It will not serve the United States interests or 
sound policymaking if we focus on partisan oversimplifications, 
or if our debate is constrained to the binary choice between 
surge or withdrawal.
    In the report before us today, and reports that we will 
receive later this month, there will be much emphasis on the 
status of so-called benchmarks. This emphasis is 
understandable, given our craving for a simple, objective 
standard against which to measure progress in Iraq. But I 
believe we should be cautious about basing our evaluation 
entirely on the success or failure of achieving these 
benchmarks. For the most part, benchmarks measure the official 
actions of Iraqi Government leaders, and the current status of 
Iraq's political and economic rebuilding effort. This is an 
important starting point.
    But pass or fail grades on a set of benchmarks are not 
necessarily predictive of ultimate success or failure. For 
example, benchmarks do not measure whether Iraq society, at the 
street level, can accept compromise, and national 
reconciliation. And I emphasize that, at the street level. If 
political deals are struck only among Iraqi's leaders, 
benchmarks do not measure the degree to which Iraqi's intend to 
pursue tribal or sectarian agendas over the long term, 
irrespective of the political maneuverings in Baghdad, 
presently. They do not measure whether Iraqi institutions will 
be resilient when they are confronted in the future with acts 
of terrorism, and factional violence. They do not measure the 
impact of regional players, who may choose to support or to 
subvert stability in Iraq. And they do not measure the degree 
to which security progress is dependent on current American 
military operations. How many benchmarks have been achieved may 
be less determinative than whether benchmark successes can be 
protected, and translated into genuine national reconciliation 
among Iraqi's populace.
    Benchmarks also fail to answer basic questions about the 
economic, political, and military sustainability of our own 
policies in Iraq. These questions, as well as the impact of our 
Iraq operations, on competing United States national security 
requirements, should be central to our decisionmaking process. 
In deference to the upcoming report from General Petraeus, we 
have largely set aside these questions in recent months. As we 
receive assessments about Iraq, the administration must be 
especially candid with Congress about the status of our Armed 
Forces.
    Regardless of what Iraq strategy is adopted, it must be 
sustainable, and it cannot be disassociated with the rest of 
the United States national security goals and obligations. In 
this context, it is vital that the administration initiate 
planning for a range of post-September contingencies. The surge 
must not be an excuse for failing to prepare for the next phase 
of our involvement in Iraq, whether that is withdrawal, a 
gradual redeployment, or some other option.
    We saw in 2003, after the initial invasion of Iraq, the 
disastrous results of failing to plan adequately for 
contingencies. During the debate on the Defense authorization 
bill in July of this year, Senator Warner and I offered an 
amendment that would have mandated contingency planning for 
follow-on strategies in Iraq. Unfortunately, we were not 
granted a vote on our amendment during that debate.
    Regardless of what the Petraeus report says, it is very 
likely that there will be changes in missions and force levels 
as the year proceeds. We need to be planning for what comes 
next. If United States military leaders, diplomats, and, 
indeed, the Congress, are not prepared for these contingencies, 
they may be executed poorly, especially in an atmosphere in 
which public demands for troop withdrawals may compel action on 
a political timetable.
    In my judgment, military contingency planners would welcome 
congressional validation for their work. Currently, because of 
the politically charged nature of the debate, military planning 
and diplomacy related to a ``plan B'' are constrained by 
concerns that either would be perceived as evidence of a lack 
of confidence in the President's surge strategy. But even 
President Bush understands that the current surge will not last 
forever, and we need to lay the groundwork for sustainable 
alternatives, so that as the President and Congress move to a 
new plan, it can be implemented safely, effectively, and 
rapidly.
    I thank the chairman for holding this hearing, and I look 
forward to our discussion this afternoon.
    Senator Kerry. Thank you very much, Senator Lugar, and 
thank you, particularly--I thought those measures that you set 
forth, which are not necessarily a component of what you get 
out of these particular benchmarks are important ones, and ones 
that we need to evaluate as we think about this today.
    Comptroller Walker, thank you for being here, and we look 
forward to your testimony.

 STATEMENT OF HON. DAVID M. WALKER, COMPTROLLER GENERAL OF THE 
     UNITED STATES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE, 
                         WASHINGTON, DC

    Mr. Walker. Chairman Kerry, Senator Lugar, other members of 
the Senate Foreign Relations Committee, I am pleased to be here 
with you today to discuss GAO's report on whether or not the 
Government of Iraq has met 18 benchmarks contained in the U.S. 
Troop Readiness, Veterans' Care, Katrina Recovery, and Iraq 
Accountability Appropriations Act of 2007.
    The act requires GAO to report on the status of the 
achievement of these benchmarks. Importantly, consistent with 
GAO's core values, and our desire to be fair and balanced, we 
used our independent and professional judgment to use a 
``partially met'' rating for some of these benchmarks. In 
comparison, the act requires the administration to report on 
whether satisfactory progress is being made toward meeting 
these benchmarks.
    At the outset, let me note that my son fought as an officer 
in the Marine Corps in Iraq, and that our professional, 
independent assessment should, in no way, serve to diminish the 
courageous efforts of our military, and those of our coalition 
partners.
    To complete this work, we reviewed U.S. Agency and Iraqi 
documents, and interviewed officials from the Departments of 
Defense, State, and Treasury, the Multi-National Force-Iraq, 
and its subordinate commands, the Defense Intelligence Agency, 
the Central Intelligence Agency, the National Intelligence 
Council, and the United Nations. These officials included, but 
were not limited to, Ambassador Ryan Crocker and General 
Petraeus.
    We made multiple visits to Iraq during 2006 and 2007, most 
recently from July 22 to August 1, 2007. Our analysis has been 
enhanced by about 100 different reports and testimonies we've 
issued on Iraq since May 2003, and we obtained data as recently 
as August 30, 2007.
    I will start on the left. I've got several boards that, 
hopefully, will be helpful to the Senators, and all of these, I 
might note, are included in my testimony as figures, and I'll 
be going in order.
    Figure 1, or Board No. 1, shows that the benchmarks that 
are contained in the act were derived from commitments 
articulated by the Iraqi Government, beginning in June 2006, 
and affirmed in subsequent statements made by Prime Minister 
Maliki in September 2006 and January 2007. Iraq's commitments 
to these benchmarks were most recently stated in a May 2007 
international compact for Iraq.
    Next, on my right--your left--is the second board. As of 
August 30, 2007, the Iraqi Government had met 3, partially met 
4, and did not meet 11 of the 18 benchmarks. Overall, key 
legislation has not been passed, violence remains high, and it 
is unclear whether the Iraqi Government will spend the $10 
billion in reconstruction funds it has allocated. And we'll 
leave this one up on the right, because it's the bottom-line 
assessment.
    Then back to my left, for the third board, with regard to 
legislation, the Iraqi Government met one of eight legislative 
benchmarks, the rights of minority political parties in Iraq's 
legislature to make sure they are protected. The Government 
also partially met one benchmark, to enact and implement 
legislation on the formation of regions. This law was enacted 
in October 2006, but will not be implemented until April 2008.
    Further, the government has not enacted legislation on de-
Baathification, oil revenue-sharing, provincial elections, 
amnesty, and military disarmament.
    Then back here to my left, for the next board, with regard 
to security, two of nine security benchmarks have been met. 
Specifically, Iraq's Government has established various 
committees in support of the Baghdad security plan, and it's 
established almost all of the planned joint security stations 
in Baghdad.
    The government has partially met the benchmarks of 
providing three trained and ready brigades for Baghdad 
operations, and the benchmark of eliminating safe havens for 
outlaw groups.
    Five other benchmarks have not been met in the security 
area. The government has not eliminated militia control of 
local security, eliminated political intervention in military 
operations, ensured even-handed enforcement of the law, 
increased army units capable of independent operations, or 
ensured that political authorities made no false accusations 
against the security forces.
    It is unclear whether sectarian violence in Iraq has 
decreased. This is a key security benchmark. Since it is 
difficult to measure intentions, and there are various other 
measures of population security, from different sources, all of 
which do not show consistent data. Some show increases, some 
show decreases, and some show inconsistent patterns. And so, 
therefore, we're not in a position to say that that condition 
had been met.
    If we look and see, the security situation, you'll see the 
overall security situation was roughly the same in July, on 
average number of attacks per day, as it was in February 2007, 
and that's the next one here on the left.
    Public Law 110-28 requires GAO to report to the Congress by 
September 1 on whether or not they've achieved these, we've 
done that, and--but I want to show you how our assessment 
compares with the administration's assessment of July 2007. 
And, I realize, Senator Kerry and other Senators, that the 
administration will make a new assessment within the next 2 
weeks. I know we all look forward to that.
    But, I think if you look at this, you'll see that as I 
mentioned before--we are assessing whether or not the benchmark 
was met, partially met, or not met. The administration is 
assessing whether or not satisfactory progress is being made. 
They are fundamentally different.
    And yet, if you look at our analysis, our independent, 
professional analysis on the left, versus what the 
administration said in July, there is only one benchmark in 
which there is a significant difference of opinion, by that I 
mean, of the three potential ratings, we had the lowest rating, 
and they had the highest rating, and that was benchmark No, 1, 
``Forming a Constitutional Review Committee, and then 
completing the constitutional review.'' They have formed the 
committee, but there's a tremendous amount of work that needs 
to be done to complete that constitutional review, and that's--
we didn't feel enough had been done to give that a ``partially 
met'' assessment. Merely forming the committee is not enough, 
there's lots more that has to be done.
    On the other hand, we do feel that our approach has 
provided a professional, objective, fair and balanced 
assessment, as of August 30, 2007.
    In summary, as of August 30, 2007, the Iraqi Government had 
met 3, partially met 4, and had not met 11 of the 18 
legislative, security, and economic benchmarks.
    In late August, there was a significant subsequent event. 
Iraq senior Shia, Sunni-Arab, and Kurdish political leaders 
signed a Unity Accord, signifying efforts to foster greater 
national reconciliation. The accord covered draft legislation 
on de-Baathification reform, and provincial powers law, as well 
as setting up a mechanism to release some Sunni detainees being 
held without charges. However, the polarization of Iraq's major 
sects and ethic groups, and fighting amount Shia factions, 
further diminishes the stability of Iraq's governing coalition, 
and its potential to be able to enact needed legislation for 
sectarian reconciliation.
    As the Congress considers the way forward in Iraq, in our 
view, it should balance the achievement of the act, of the 18 
Iraqi benchmarks with military progress, and homeland security, 
foreign policy, and other goals of the United States.
    Further, administration reports on the benchmarks would be 
more useful to the Congress, if they clearly depicted the 
status of each legislative benchmark, provided additional 
quantitative and qualitative information on violence from all 
of the relevant U.S. agencies, and specified the performance 
and loyalties of Iraqi security forces supporting coalition 
operations. You not only need to be ready, you need to be 
reliable, in order to support security operations.
    Finally, I would like to thank the GAO team, who has done 
this work. They have done a tremendous amount of work on a very 
short deadline, have pulled some all-nighters, including as 
recently as the last 48 hours. I also want to thank you, 
Senators, for taking time out of your busy schedules to be 
here, and I'd be more than happy to answer any questions you 
might have. Thank you.
    [The prepared statement of Mr. Walker follows:]

Prepared Statement of Hon. David M. Walker, Comptroller General of the 
  United States, U.S. Government Accountability Office, Washington, DC

    Mr. Chairman and members of the committee, I am pleased to appear 
today to discuss our report \1\ on whether or not the Government of 
Iraq has met 18 benchmarks contained in the U.S. Troop Readiness, 
Veterans' Care, Katrina Recovery, and Iraq Accountability 
Appropriations Act of 2007 \2\ (the Act). The Act requires GAO to 
report on the status of the achievement of these benchmarks. Consistent 
with GAO's core values and our desire to be fair and balanced, we also 
considered and used a ``partially met'' rating for some benchmarks. In 
comparison, the Act requires the administration to report on whether 
satisfactory progress is being made toward meeting the benchmarks. The 
benchmarks cover Iraqi Government actions needed to advance 
reconciliation within Iraqi society, improve the security of the Iraqi 
population, provide essential services to the population, and promote 
economic well-being.
---------------------------------------------------------------------------
    \1\ GAO, ``Iraqi Government Has Not Met Most Legislative, Security, 
and Economic Benchmarks'' (GAO-07-1195) (Washington, DC: Sept. 4, 
2007).
    \2\ Section 1314 of P.L. 110-28.
---------------------------------------------------------------------------
    To complete this work, we reviewed U.S. agency and Iraqi documents 
and interviewed officials from the Departments of Defense, State, and 
the Treasury; the Multi-National Force-Iraq (MNF-I) and its subordinate 
commands; the Defense Intelligence Agency; the Central Intelligence 
Agency; the National Intelligence Council; and the United Nations. 
These officials included Ryan Crocker, the U.S. Ambassador to Iraq, and 
General David H. Petraeus, Commander of the Multi-National Force-Iraq. 
We made multiple visits to Iraq during 2006 and 2007, most recently 
from July 22 to August 1, 2007. Our analyses were enhanced by 
approximately 100 Iraq-related reports and testimonies that we have 
completed since May 2003. We conducted our review in accordance with 
generally accepted government auditing standards.
                                summary
    In summary, we found:
    The benchmarks were derived from commitments first articulated by 
the Iraqi Government in June 2006.
    The Iraqi Government met 3, partially met 4, and did not meet 11 of 
its 18 benchmarks. Overall, key legislation has not been passed, 
violence remains high, and it is unclear whether the Iraqi Government 
will spend $10 billion in reconstruction funds. These results do not 
diminish the courageous efforts of coalition forces and progress that 
has been made in several areas, including Anbar province.
    The Iraqi Government met one of eight legislative benchmarks: The 
rights of minority political parties in Iraq's legislature are 
protected. The government has not enacted legislation on de-
Baathification, oil revenue sharing, provincial elections, amnesty, and 
militia disarmament.
    It is unclear whether sectarian violence in Iraq has decreased--a 
key security benchmark--since it is difficult to measure whether the 
perpetrators' intents were sectarian in nature, and other measures of 
population security show differing trends.
    As the Congress considers the way forward in Iraq, it should 
balance the achievement of the 18 Iraqi benchmarks with military 
progress and with homeland security goals, foreign policy goals, and 
other goals of the United States.
                       origins of the benchmarks
    The benchmarks contained in the Act were derived from commitments 
articulated by the Iraqi Government beginning in June 2006 and affirmed 
in subsequent statements by Prime Minister Maliki in September 2006 and 
January 2007 (see fig. 1). Iraq's commitments to these benchmarks were 
most recently stated in the May 2007 International Compact for Iraq.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                  gao assessment of the 18 benchmarks
    As of August 30, 2007, the Iraqi Government met 3, partially met 4, 
and did not meet 11 of its 18 benchmarks. Overall, key legislation has 
not been the 18 Benchmarks passed, violence remains high, and it is 
unclear whether the Iraqi Government will spend $10 billion in 
reconstruction funds.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   most legislative benchmarks have yet to be enacted and implemented
    The Iraqi Government met one of eight legislative benchmarks: The 
rights of minority political parties in Iraq's legislature are 
protected. The government also partially met one benchmark--to enact 
and implement legislation on the formation of regions; this law was 
enacted in October 2006 but will not be implemented until April 2008. 
Six other legislative benchmarks have not been met. Specifically, a 
review committee has not completed work on important revisions to 
Iraq's constitution. Further, the government has not enacted 
legislation on de-Baathification, oil revenue sharing, provincial 
elections, amnesty, and militia disarmament. The administration's 
report cited progress in achieving some benchmarks but provided little 
information on what step in the legislative process each benchmark had 
reached. We provide that information below.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

             mixed results in achieving security benchmarks
    Two of nine security benchmarks have been met. Specifically, Iraq's 
Government has established various committees in support of the Baghdad 
security plan and established almost all of the planned Joint Security 
Stations in Baghdad. The government has partially met the benchmarks of 
providing three trained and ready brigades for Baghdad operations and 
eliminating safe havens for outlawed groups. Five other benchmarks have 
not been met. The government has not eliminated militia control of 
local security, eliminated political intervention in military 
operations, ensured even-handed enforcement of the law, increased army 
units capable of independent operations, and ensured that political 
authorities made no false accusations against security forces. It is 
unclear whether sectarian violence in Iraq has decreased--a key 
security benchmark--since it is difficult to measure perpetrators' 
intents, and various other measures of population security from 
different sources show differing trends. As displayed in figure 4, 
average daily attacks against civilians have remained unchanged from 
February to July 2007.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

           comparison of gao and executive branch assessment
    Public Law 110-28 requires GAO to report to Congress by September 
1, 2007,\3\ on whether or not the Government of Iraq has met 18 
benchmarks contained in the Act, and the status of the achievement of 
these benchmarks. The Act requires the administration to report in July 
and September 2007 on whether satisfactory progress is being made 
toward meeting the benchmarks. As stated previously, we considered and 
used a ``partially met'' rating in several circumstances. Figure 5 
compares the two assessments.
---------------------------------------------------------------------------
    \3\ GAO provided this report to Congress on September 4, 2007, the 
first business day following September 1, 2007.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              conclusions
    As of August 30, 2007, the Iraqi Government met 3, partially met 4, 
and had not met 11 of 18 legislative, security, and economic 
benchmarks. The Iraqi Government has not fulfilled commitments it first 
made in June 2006 to advance legislative, security, and economic 
measures that would promote national reconciliation among Iraq's 
warring factions. Of particular concern is the lack of progress on de-
Baathification legislation that could promote greater Sunni 
participation in the national government and comprehensive hydrocarbon 
legislation that would distribute Iraq's vast oil wealth. In late 
August, Iraq's senior Shia, Sunni Arab, and Kurdish political leaders 
signed a Unity Accord signaling efforts to foster greater national 
reconciliation. The Accord covered draft legislation on de-
Baathification reform and provincial powers laws, as well as setting up 
a mechanism to release some Sunni detainees being held without charges. 
However, the polarization of Iraq's major sects and ethnic groups and 
fighting among Shia factions further diminishes the stability of Iraq's 
governing coalition and its potential to enact legislation needed for 
sectarian reconciliation.
    Reconciliation was also premised on a reduction in violence. While 
the Baghdad security plan was intended to reduce sectarian violence, it 
is unclear whether violence has been reduced. Measuring such violence 
may be difficult since the perpetrators' intents are not clearly known. 
Other measures, such as the number of enemy-initiated attacks, show 
that violence has remained high through July 2007.
    As the Congress considers the way forward in Iraq, it should 
balance the achievement of the 18 Iraqi benchmarks with military 
progress and homeland security, foreign policy, and other goals of the 
United States. Future administration reports on the benchmarks would be 
more useful to the Congress if they clearly depicted the status of each 
legislative benchmark, provided additional quantitative and qualitative 
information on violence from all relevant U.S. agencies, and specified 
the performance and loyalties of Iraqi security forces supporting 
coalition operations.
                            recommendations
    In preparing future reports to Congress and to help increase 
transparency on progress made toward achieving the benchmarks, we 
recommend that:
          1. The Secretary of State provide information to the 
        President that clearly specifies the status in drafting, 
        enacting, and implementing Iraqi legislation;
          2. The Secretary of Defense and the heads of other 
        appropriate agencies provide information to the President on 
        trends in sectarian violence with appropriate caveats, as well 
        as broader quantitative and qualitative measures of security; 
        and
          3. The Secretary of Defense and the heads of other 
        appropriate agencies provide additional information on the 
        operational readiness of Iraqi security forces supporting the 
        Baghdad security plan, particularly information on their 
        loyalty and willingness to help secure Baghdad.
    We provided drafts of the report accompanying this testimony to the 
relevant U.S. agencies for review and comment, which we incorporated as 
appropriate. We received written comments from the Departments of State 
and Defense and technical comments from the Central Intelligence Agency 
and National Intelligence Council, which are included in the report. 
State and DOD concurred with our recommendations but disagreed with our 
assessment of certain benchmarks. Although we analyzed classified data, 
including the August 2007 National Intelligence Estimate for Iraq, the 
testimony and report only contain unclassified information, as of 
August 30, 2007. We issued a classified report to supplement the 
information discussed in our report.\4\
---------------------------------------------------------------------------
    \4\ GAO-07-1220T
---------------------------------------------------------------------------
    Mr. Chairman and members of the committee, this concludes my 
prepared statement. I would be happy to answer any questions that you 
may have.

    Senator Kerry. Thank you very much, Mr. Walker. We're very 
happy to be here. Obviously, this is our job, so you don't need 
to thank us for being here, but we do appreciate the extra 
effort of all of the folks who have been involved in trying to 
do this.
    We'll do 7-minute rounds, and hopefully if people have 
additional questions, we can have another round.
    Mr. Walker, did you receive the full and timely cooperation 
of all of the agencies that you needed in order to compile this 
report?
    Mr. Walker. Senator, we received the cooperation we needed 
to do our job, in some cases, it could have been more timely, 
but ultimately we got what we needed to reach our independent 
and professional judgment.
    Senator Kerry. And were the relevant executive agencies 
also cooperative with you in this effort?
    Mr. Walker. Yes; the agencies that we sought information 
from, which include the ones that I mentioned at the outset of 
my testimony. We have had issues, from time to time, with 
regard to timely access--to Transitional Readiness Assessments, 
the so-called TRAs, which are what are used in order to assess 
the capability of Iraqi forces. We still have related work 
going on, but the bottom line is, we got what we thought we 
needed in order to be able to do this job.
    Senator Kerry. Was there any pressure of any kind from any 
place, with respect to any of the conclusions that you drew?
    Mr. Walker. I'm not aware of any such pressure. 
Unfortunately, somebody from the administration leaked the 
report last Wednesday or Thursday, it appeared in a number of 
media--both print and electronic--over a few days. When they 
leaked that certain executive branch officials noted they were 
going to try to convince us to change some of our ratings, as 
you can see, the only thing we really did was we went to a 
``partially met'' on a couple, one of which I'd made the 
judgment to do so before receiving their comments, the other of 
which they provided us additional information that we did not 
have previously, which caused us to change our judgment.
    Senator Kerry. And what were those two?
    Mr. Walker. The two were, ``Providing three trained and 
ready brigades to support Baghdad operations.'' As you know, 
they have provided three trained brigades, most of them have a 
reasonable degree of readiness, but we have some concerns about 
readiness and reliability.
    Senator Kerry. At what time did they provide the three? 
When were they due?
    Mr. Walker. Well, that one--that information we received
in late August. But candidly, we wanted to decide on our own, 
whether or not readiness was enough. Because one can be ready, 
but potentially not reliable.
    One of the concerns that exists in Iraq, as you know, there 
are divided loyalties in some regards. There are, on one hand, 
are you loyal to the National Unity government? Or, are you 
loyal, potentially to a particular group or sect or individual? 
And, we had concerns in that regard, in addition to concerns 
that we had about the readiness of certain units.
    And, then the second one was, the ``safe havens'' item. 
Basically, we decided to give a ``partially met'' there, 
because with the exception of Sadr City, we felt that 
tremendous progress has been made. With Sadr City, there have 
been incursions into Sadr City from time to time. While there 
are not restrictions on incursions there, but there are no 
security bases in Sadr City, and that is an area that one can 
say is not totally secure, by any means.
    Senator Kerry. But it was, and is your judgment that in 
fact, the infiltration of some of those forces by militia has 
created a de facto ``safe haven'' in certain places?
    Mr. Walker. Well, there are two issues, Senator. One issue 
is whether or not, because of divided loyalties within the 
Iraqi forces, that has caused a potential diminution in their 
ability to be supportive of the security operations. The second 
is, whether or not there are certain sections of the city, or 
sectors of the city, where there could be loyalties to 
particular militias, and where because of an absence of a 
continuing security presence there, it could be a relative safe 
haven, and that's what we're seeing.
    Senator Kerry. Well, I agree with Senator Lugar that there 
are a lot of measurements that are not reflected in this, which 
may have as much bearing on our ability to be able to get the 
political reconciliation, as these benchmarks. But, it's 
somewhat disconcerting when you read through these benchmarks 
that those that are partially met, and/or met, are frankly, 
pretty light. Compared to those that are completely unmet, 
which are obviously of much greater significance to any kind of 
political reconciliation or resolution. And very specifically 
where you have met benchmarks, the one that is met, for 
example, is ``the Political, Media, Economics Services 
Committees in support of a Baghdad security plan.'' That's not 
particularly a complicated nor, frankly, even critical 
benchmark.
    The other one that has been met is, ``Creating the joint 
security stations in neighborhoods across Baghdad where you 
have military force present, and you have the joint--'' but it 
doesn't reflect what's happening outside of that security 
station.
    And the third is, that ``the rights of minority political 
parties in the legislature are protected.'' So, you've got 
three fairly innocuous benchmarks, whereas the basic benchmarks 
are, with respect to hydro-carbon resources, de-Baathification, 
the constitutional review, Iraqi commanders independently 
capable of making decisions to go out to do things, the even-
handed enforcement of the law by the Iraqi Security Forces, 
reducing the sectarian violence, et cetera. All of those things 
which, in the end, are going to measure whether or not Iraq can 
come together and end this civil strife, you have a zero 
progress.
    Help us to understand what, you think, in your judgment is 
key. Are you able to conclude as a consequence of these many 
reports, and long involvement now, what's missing and what is 
going to be necessary to try to create greater progress with 
respect to the sectarian struggle?
    Mr. Walker. Several comments, Senator.
    First, as you know, of the 18 benchmarks, they really cover 
three areas: Political, economic, and security. Clearly, the 
least progress has been made on the political front. And as 
you, and other members--Senator Lugar mentioned earlier--one of 
the primary purposes for the surge was to enhance security in 
order to provide additional breathing room, in order to make 
political progress.
    We did not attempt to weight these 18 benchmarks. We didn't 
feel it was appropriate for us to do that. I would, however, 
say that I think that No. 9 and No. 10, which we put down as a 
``partially met,'' are significant items, as they relate to 
security within Baghdad. And as you know, the surge was 
intended to be primarily about trying to create additional 
security, to enable additional, further political progress, 
with a particular emphasis on Baghdad.
    Senator Kerry. Nine and what?
    Mr. Walker. No. 9 and No. 12. No. 9 would be, ``Providing 
three trained and ready brigades to support Baghdad 
operations,'' and No. 12 would be, ensuring that, according to 
President Bush, Prime Minister Maliki, as they said, the 
Baghdad security plan will not provide a safe haven for any 
outlaws, regardless of the sectarian or political affiliation. 
And we found a ``partially met'' there, rather than a fully 
met, for the reasons I articulated previously.
    Last I would say is, if we said that it was a ``not met,'' 
Senator, that doesn't mean there's been no progress. It means 
there hasn't been enough progress for us to be able to say that 
it's at least partially met. Or, it is a criteria that doesn't 
lend itself to a partially met.
    But, needless to say, the biggest problem area is in the 
political area. There's no question about that.
    Senator Kerry. Well, I understand that, and we're going to 
have to try to sort through this, and I hope today we can 
establish some kind of lines on our own to understand. Because 
I think it would be a shame if we spend the next month 
quibbling over, sort of, these tiers of progress, versus what 
you're establishing, as sort of, even a ``partially met'' 
standard here. But, I guess, as a matter of common sense, we're 
all going to be able to judge whether or not it is sufficient 
to be able to say that it's moving fast enough to try to 
resolve the fundamental differences here.
    Obviously, I have a lot of followups, but my time's up in 
the first round, so let me turn to Senator Lugar, and I'll come 
back.
    Senator Lugar. Thank you very much, Mr. Chairman.
    Mr. Walker, just in furthering the chairman's questioning 
today, I would just observe that without going deeply into the 
rich and intricate history of that area, but--as witnesses have 
described before this committee--European powers essentially 
drew lines around an area which, after the First World War, was 
called Iraq. And then imposed a monarchy that essentially 
suppressed differing views. Saddam Hussein may have been the 
most evil manifestation of this, but essentially order was 
kept, albeit, by murder and torture and suppression.
    Now, our governmental policy, for a variety of reasons--
some of which turned out to be valid, certainly the idea that 
this was a brutal and cruel monarch--led to an idea of a regime 
change. That Saddam must go, and in fact, he was overthrown 
fairly early on in the war.
    There was also a very strong feeling on the part of the 
administration and others, that this was a remarkable 
opportunity for development of a democracy in that area, that 
would be a shining symbol for others in the Muslim world. And 
that our efforts ought to be building democracy, and indeed we 
moved through various stages of elections, demand for a 
constitution, and protection of minorities, and all of the 
things we treasure in this country.
    The problem that I have is, I mentioned in my opening 
statement, is that coming through many of our hearings, kept 
that gnawing question: Do Iraqis want to be Iraqis? Is there a 
sense of those 25 million people that they want to be one 
nation, as opposed to some Iraqis wanting to dominate the whole 
lot? And being prepared to take whatever steps are necessary in 
terms of terrorist aversion, even perhaps alliance with 
citizens of other countries to obtain their hegemony in Iraq.
    If the answer to that question is that, fundamentally, 
Iraqis have not come to the conclusion they want to be Iraqis, 
then we have an awesome problem. And we have been attempting, 
in a humane way, to solve that with the surge, by suppressing 
people from killing each other. We've probably saved a lot of 
lives by putting walls around neighborhoods, so that people 
could not get at each other, and kill each other.
    But the issue, then, is how long can you maintain this? And 
the thought is, well, not forever. Iraqis surely, with an armed 
force, with a police force, with others, would come through a 
training operation and develop professionalism. In fact, the 
Anbar situation, frequently cited its bottom up approach, leads 
to better training, of either police or armed forces in Anbar, 
who have, as a matter of fact, a very strong Sunni affiliation. 
It leads one to believe that at least these Iraqis do want to 
take hold of their part of the country and be Anbaris if 
nothing else. And, we're going to hear reports that progress 
has been made with the army that's loyal to Prime Minister 
Maliki, who have a very strong Shiite affiliation. 
Nevertheless, we could be training, effectively, armies that 
are in the end going to do battle with each other, without 
raising the question, Do you want to be Iraqis? Or, are you 
determined to lord hegemony over the other, at the end of the 
day?
    And, that is the sort of benchmark I would hope we were 
trying to measure against at this point.
    Now, if the answer, ultimately, is that Iraqis really are 
not as concerned about being Iraqis, but only want to be Iraqis 
if they're in charge, then they will continue civil strife. And 
they may do, even within the Shiite community, as we're seeing 
in the Basra area, as the British withdraw from various 
positions. And this is an awesome dilemma.
    Now, critics can say, ``Well, we never should have begun 
the whole thing, this is what unleashed all of this,'' and fair 
enough. But, we are there now, and the question is, really, 
What do we do? What are the contingency planning situations, 
given this set of events.
    Do you have any comment? Because this is an unfair question 
to throw in, on top of 18 benchmarks, which are not irrelevant 
to this, but are largely. If, in fact, it were determined on 
civil war, whether the oil law is being passed or not, becomes 
irrelevant. You want to have it all? Ditto for minority rights, 
and so forth.
    What is the Iraqi ethic at this point? As you judge it? As 
your people have gone back and forth, is it possible this 
country can come to a solution, without continuous civil 
strife, or simply waiting until somebody wins and imposes their 
will. Not in a democratic fashion, but in the old fashioned way 
that Iraqis, at least for the last 50 years of Baath Party 
rule, were used to?
    Mr. Walker. Well, first, Senator, as you know, the Iraqi 
Government is a representative democracy, just as we're a 
republic. And I'm not aware of and we certainly have not 
conducted work to try to ascertain whether or not Iraqis, as 
individuals, want to be in one country. I think it depends upon 
what the conditions are. I would respectfully suggest that 
arguably, the legislative benchmarks, in many ways, could be 
viewed as a proxy for whether or not the elected 
representatives of the people want one country or not.
    Senator Lugar. Well, at least a dozen Cabinet members have 
checked out. So, you have one benchmark there that's rather 
vivid.
    Mr. Walker. Well, 15 of 37 have checked out. So, the 
question is whether or not the elected representatives of the 
people are willing to make enough compromises in order for them 
to agree that they want to act as one, which is separate and 
distinct from whether or not their constituents want there to 
be one. As we know, sometimes there can be a difference of 
opinion between what the constituents want, and what their 
elected representatives might decide is the appropriate course 
of action.
    I think there's also two other issues that I would raise, 
just for you to think about. No. 1--geographics. There's no 
question there's been progress in Anbar province, but Anbar 
province is not Baghdad. And Anbar province is not 
representative of, necessarily, other provinces in Iraq--it's 
Sunni-dominated. The issues there were primarily dealing with 
al-Qaeda, and primarily Sunni-on-Sunni challenges there. But 
there's no question there's been progress there. The question 
is: Is it sustainable and transferable?
    And the second thing is, is what should our role be in 
Iraq? Should it be fighting al-Qaeda? Or should it be providing 
for safe streets? They are fundamentally different things.
    Senator Lugar. Yes.
    Mr. Walker. And I think the Congress needs to have a debate 
about if we're going to stay--obviously, we are, in some 
numbers, for some period of time--what are we going to do, and 
what are we going to try to accomplish with the forces that we 
have? What's appropriate for us to be doing, versus others?
    Senator Lugar. Important questions, and perhaps we'll be 
able to advise some benchmarks on those, a new course.
    And I thank you, Mr. Chairman.
    Senator Kerry. You drew, justifiably, but you drew no 
conclusions, though, with respect to this nationalistic drive 
itself?
    Mr. Walker. We did not, but I think, what I would reiterate 
is what I said before--arguably the legislative benchmarks are 
a proxy as to whether or not the elected representatives of the 
people want one country or not. They haven't made much 
progress. That's different from what a referendum might come up 
with. That's a different issue.
    Senator Kerry. I understand.
    Senator Feingold.
    Senator Feingold. Thank you very much, Mr. Chairman.
    I'd like to thank you, Comptroller Walker, for testifying 
today about the GAO's report on the 18 benchmarks for judging 
progress in Iraq. These benchmarks are important indicators 
that can help us understand the direction in which Iraq is 
headed, and the GAO's findings paint, what I find to be a 
disturbing picture. It is one of divisive political turbulence, 
rampant sectarian violence, and calamitous insecurity--in the 
middle of which are more than 160,000 brave American troops 
fighting with no end in sight.
    Even more disturbing, however, is what neither the GAO nor 
General Petraeus were asked to consider, and that is how, the 
administration's focus on Iraq is hurting the global fight 
against
al-Qaeda. By redeploying troops from Iraq, we can finally focus 
greater attention and resources on a global fight against a 
determined and ruthless enemy.
    Sir, in benchmarks 9, 10, and 11, the GAO report indicates 
that the ISF are incapable of operating independently, that 
they are beset by political intervention, that they are 
infiltrated by militias, and do not evenhandedly interpret the 
law. The combination of these facts or factors makes it 
exceedingly difficult for the ISF to keep up its part of the 
Baghdad security plan, which you reported they were only able 
to do with limited effectiveness.
    Accordingly, I'd like to ask you, do you think that the ISF 
will be able to ``hold'' neighborhoods cleared by American 
forces? And if not, is there any reason to think that any gains 
that have been made during the recent surge will actually hold 
in the long run?
    Mr. Walker. I think there is a serious question as to 
whether or not they, on their own, will be able to hold these 
neighborhoods for an extended period of time, because as you 
know, Senator Feingold, most Iraqi units depend on the United 
States, in terms of logistics, intelligence, and other types of 
capabilities. Stated differently, I think there is a 
significant question as to whether or not Iraqi Security Forces 
will be able to maintain the safety and security in these 
areas, absent direct U.S. troop involvement, because as we all 
know, most Iraqi Security Forces require significant support 
from the United States, in the form of logistics, in the form 
of intelligence, and other types of activities. That's probably 
the $64,000 question.
    Senator Feingold. Well, it's sort of related, to the extent 
that General Petraeus has succeeded in creating some pockets of 
security, based on the GAO's recent analysis of these 
benchmarks, do you think that these pockets are contributing to 
a larger growth of long-term stability, and how do you think 
the decision not to push for militia disarmament will impact 
long-term stability?
    Mr. Walker. The militia disarmament issue is a serious 
issue that needs to be resolved, it clearly serves to undercut 
security and stability in the absence of having that 
disarmament. But, I come back to something that I said before, 
Senator Feingold, and that is, one of the things that I would 
respectfully suggest that needs to be considered by this body 
is: What is the proper role for our forces in Iraq? There's a 
difference between fighting al-Qaeda, providing training and 
support to Iraqi forces, and being on the front line in 
providing security and safety in the streets--those are 
fundamentally different things. And, obviously, one tends to be 
a lot more force-intensive than other roles.
    Senator Feingold. I want to go back to the first part of my 
question, though. The notion is that General Petraeus and the 
activities here have somehow created certain pockets of 
security. But, do they create a larger sense of long-term 
stability? Or is it more isolated to those areas?
    Mr. Walker. There's clearly no question that they've made a 
difference in significant areas of Baghdad--not all areas of 
Baghdad. That's a separate and distinct issue as to whether or 
not the ISF by itself will be able to maintain that, and as 
we've talked previously, making progress on the political front 
is absolutely essential, in order to provide the type of 
security and stability necessary for the situation to be 
maintained longer term in Baghdad, and elsewhere, in Iraq.
    Senator Feingold. Well, the way I interpreted your answer, 
and I'd ask you if you think this is fair, is it--in effect--
creating one of these pockets of security, or several of them, 
does not necessarily mean that sort of a--that there's a 
catching on of an overall sense of stability outside of those 
areas?
    Mr. Walker. It's an improvement, but it's separate and 
distinct as to whether or not it's sustainable.
    Senator Feingold. Right.
    Mr. Walker. They are different issues.
    Senator Feingold. I understand that, in assessing the 
benchmarks for this GAO report, your staff looked at them 
collectively, while the July 2007 White House benchmark 
assessment examined each benchmark individually.
    Mr. Walker. We looked at them individually. The primary 
difference, Senator Feingold, between what we did and what the 
administration did, is the administration assessed whether or 
not there was satisfactory progress being made, with regard to 
the individual benchmarks, whereas, we made an independent and 
professional judgment as to whether or not they were either 
met, partially met, or not met. That's the primary difference.
    Senator Feingold. As to individual items?
    Mr. Walker. Correct.
    Senator Feingold. And then, in what way did you look at 
things collectively, then? The--for each of these, together?
    Mr. Walker. Yes, we add them up. They had 3 met, 4 
partially met, and 11 not met----
    Senator Feingold. Just in terms of numbers----
    Mr. Walker. Correct.
    Senator Feingold [continuing]. Rather than overall 
assessment.
    Mr. Walker. That's correct.
    Senator Feingold. All right. Thank you very much.
    Mr. Walker. And we did not weight, Senator Feingold, each 
of the 18. I mean, obviously, some of these were more important 
than others.
    Senator Feingold. Right.
    Mr. Walker. But we didn't try to substitute our independent 
judgment because we didn't think that was appropriate to try to 
weight these.
    Senator Feingold. Thank you very much.
    Senator Kerry. Before I turn to Senator Hagel, let me just 
comment that there is a clear distinction, if you're saying 
``partially met'' is a standard that is not met, i.e., they are 
unmet, and you have 11 categories that are not met, then we 
have a real gap here between whatever the definition is of 
``satisfactory progress'' and something that is just not even 
able to being ``partially met.''
    Mr. Walker. If I can, Senator Kerry, let me give you an 
analogy that I think all of you can probably relate to. As you 
know, this administration has something called the President's 
Management Agenda, and the President's Management Agenda deals 
with linking resources to results, information technology, 
human capital strategy, et cetera. And they rate two things on 
that Management Agenda, at least twice a year. First, where 
does each agency stand as of a point in time on achieving the 
objectives; and then, second, whether or not they're making 
satisfactory progress.
    In essence, we are doing the first. We are doing--where do 
things stand as a point in time? However, we added the 
``partially met,'' because we felt that was appropriate to be 
fair and balanced, and not have a stark assessment of either 
100 percent there, or not met--that's not reality, OK?
    We also provided additional contextual sophistication by 
talking about the status. So really, by definition, their 
ratings are going to look better than ours, because they're 
based upon their view of progress, which is inherently more 
subjective; and second, needless to say, they're not 
independent, and we are.
    Senator Kerry. Well, my point is also partly, you know, 
I'll just be very quick, there's an unfortunate history here of 
this administration drawing political lines which have avoided, 
which have voided--not just avoided--but have voided any 
ability to try to find the kind of sensible bipartisan 
consensus that we might, to answer your question: What should 
the role of our troops be? And yesterday I was really angered 
by what the President said when he was in Iraq when he said 
that, ``These decisions will be based on a calm assessment by 
our military commanders on the conditions on the ground, not a 
nervous reaction by Washington politicians to poll results in 
the media.''
    Let me make it clear that, notwithstanding there were some 
20 or so, plus Senators who voted against this initiative, 
there were many more who immediately, like myself, were 
critical of the President for having broken the promises he 
made about what he would do in its execution. And then he made 
a series of judgments which, even at the time, people were 
counseling him were incorrect, like the disbanding of the 
military and other kinds of things.
    So, I think it is entirely inappropriate for the President 
to be long-distance while visiting the troops, whom we all 
support, from those kinds of incendiary political lines, as 
we're struggling to find out what our troops ought to be doing.
    I would remind the President that the things we voted for 
in the Senate, never embraced by the administration, are what 
many in this country have suggested. In fact, we gave the 
President the discretion to complete the training, to continue 
to fight al-Qaeda and protect American forces and American 
interests with a certain number of troops.
    And so, again, my hope is in these next days, this debate 
will be reduced with a legitimate discussion of what that role 
really ought to be--what it can be, of what the Iraqis are 
prepared--as Senator Lugar has suggested--to embrace 
themselves. Because no efforts of our troops in the end--and I 
think you would agree with this, Mr. Walker--no efforts by our 
troops on their own, no matter how valiant, is going to resolve 
these political differences, if they have the will to continue 
to fight.
    So, I just want to make that point.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    Comptroller Walker, welcome. Your question that has been 
noted in the past 10 minutes, I think, is the real question 
that we, in the Congress and this country, will face, and must 
deal with. And that is the role of the United States in Iraq.
    You have, and your colleagues have, once again, provided a 
very qualitative, and first-rate, piece of analysis and work 
based on 18 benchmarks. But as I have read your report, and 
listened to you today, and listened to some of my colleagues 
and the questions that they've asked, it really does come down 
to that very basic question that you have put before this 
committee--the role of the United States in Iraq.
    And, when I hear you say such things as, ``Violence remains 
high in Iraq,'' ``Unclear whether sectarian violence has 
diminished in Iraq,'' ``Least progress made on the political 
front in Iraq,'' it leads me to the obvious question is: How 
much more American investment are we willing to apply, 
specifically investment of American blood and treasure?
    We are now in our fifth year, with--incidentally--our 
casualty rates last month higher than they were the month 
before. And, when you give any analysis to the progress we've 
made in Iraq, by your 18 benchmarks or other questions that 
must be asked, we've not made much progress. And I say ``we,'' 
it really means something which you have noted, as well as 
Senator Lugar and others, that if the Iraqi people are not 
willing to find some political accommodation to get to 
political reconciliation, then our strategy of so-called surge, 
for the tactile victories we can point to, to fill an 
occasional box, without the strategic context overall--and you 
asked the last question in your summary comments about, we 
should apply our judgment to the larger framework of our 
foreign policy, our national security, really, really needs to 
be looked at, very carefully. Because, the fact is, we are 
going to leave Iraq. It is not a matter of, if we're going to 
leave, it's a matter of when and how we leave.
    The Generals have all told us that when the spring rolls 
around, the rate of deployments is going to change, meaning 
very simply, we don't have the troops to continue the rate of 
redeployments that we are now on the rotation cycle. So, not 
unlike campaigns, you work back from election day. And, I think 
the reality of what you have brought forward, as well as other 
reports that will come before the Congress, is going to force 
us--I hope--to make some pretty difficult choices here, on 
where we are taking the United States of America. And, is it in 
the best interest of the people of Iraq, aside from our 
influence and interest in the world?
    When you noted, in your words, I believe, the real question 
is whether the Iraqis will be able to sustain what American 
blood and treasure has bought for them, to find some time where 
they can come together with a political agreement to govern the 
country is a real question, and it's the question I'm asking. 
How many more American deaths and casualties, and billions and 
billions of dollars, undermining our interest and influence in 
the world, are we going to continue to invest, for what? For 
what?
    These are strategic issues, questions I know that are 
beyond your responsibilities, and beyond your mandate and 
charge, or your organization's responsibilities. But I make 
that point, because it is these kinds of reports that are 
particularly important for us, the American people, to bring 
some measurement to progress, to allow us to form some judgment 
on where we go from here.
    With that said, I would like to also, to get your sense on 
whether you believe there is a functioning government in Iraq, 
and I have a couple of other questions, but let me start there. 
Based upon what you know, and what your people have found out, 
do you believe there is a functioning government in Iraq, in 
the way I determine and define functioning--is it a government 
that can govern itself, defend itself, support itself in any 
way?
    Mr. Walker. Let me provide some facts.
    Senator Kerry. Can we get them?
    Mr. Walker. The lights are on, I'm not sure what the 
problem is.
    Senator Kerry. We have a little malfunction.
    Mr. Walker. As has been noted, 15 of 37 ministers have 
withdrawn their support for the government. Now, that's not a 
majority, but it is close to a majority.
    Second, as we have reported in the past, there are 
significant capacity problems with regards to several 
ministries, where the ministers have not withdrawn support. As 
I've noted before, the least progress has been made on the 
political front. So, I would say that one would have to say, 
based upon that--that, and given the fact that significant 
progress has not been made in improving the living conditions 
of the Iraqis on a day-to-day basis, with regard to things that 
all citizens care about--safe streets, clean water, reliable 
electricity, a variety of other basic things--I think you would 
have to say, it is dysfunctional, the government is 
dysfunctional.
    Senator Hagel. Thank you. Let me also ask--have you seen a 
recent ``Special Inspector General for Iraq Reconstruction 
Report,'' done by Mr. Bowen?
    Mr. Walker. It depends upon which one you mention, Senator. 
I do speak with Stu Bowen several times a year, and we try to 
coordinate efforts and minimize duplication of effort.
    Senator Hagel. It's his most recent report that he has come 
back with, and he is now briefing the administration, I 
understand, on this. I don't know if you've had a chance to 
look at it.
    Mr. Walker. I've not seen it, personally, but I imagine my 
staff has probably been briefed on it.
    Senator Hagel. Well, it's another important analysis, a 
different set of dynamics and factors and areas of inspection 
than yours. But it fits into your larger strategic context 
question you put before this committee, as you, I think, very 
succinctly, put it in your last point, in your list of 
conclusions. I know my time is up, I want to thank you, Mr. 
Walker, and your organization for your continued good work and 
support for all of us. We count on it, the American people 
expect that kind of quality also, and rely on that kind of 
quality.
    Thank you.
    Mr. Walker. Thank you, sir.
    Senator Kerry. Thank you, Senator Hagel.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Walker, according to the report--and tell me if I'm 
wrong--the Iraq Government did not meet the benchmarks to 
complete work in revising Iraq's Constitution, did not meet the 
benchmark to enact legislation on de-Baathification, did not 
meet the benchmark to enact legislation on oil revenue-sharing, 
did not meet the benchmark to enact legislation on provincial 
elections, did not meet the benchmark to enact legislation on 
amnesty, and did not meet the benchmark to enact legislation on 
disarming militias. Is that correct?
    Mr. Walker. That is correct.
    Senator Menendez. Now, given that, according to your own 
report, the Iraqi Government has met only one of the eight 
legislative benchmarks. Would you agree that it is a fair 
assessment to say that the Iraq Government should get a failing 
grade on the legislative benchmarks?
    Mr. Walker. To date, it is unsatisfactory.
    Senator Menendez. You're kinder than I am. If the American 
public were looking at this, and we had benchmarks, I'm sure 
that they would say it's a failing grade.
    And isn't it true that the point of the President's 
escalation plan was to give the Iraqis a chance to carry out 
political reconciliation?
    Mr. Walker. The primary point of the surge was to improve 
security, in particular, in Baghdad, in order to provide 
political breathing room, to make the necessary tradeoffs to 
achieve political progress, hopefully resulting in national 
unification.
    Senator Menendez. As a matter of fact, didn't your draft 
report say this was designed to provide the Iraqi Government 
time and space needed to address reconciliation amongst various 
segments of Iraqi society?
    Mr. Walker. That's correct, Senator.
    Senator Menendez. Based upon that report, did the Iraqi 
Government actually achieve this goal?
    Mr. Walker. Not as of this point in time.
    Senator Menendez. So, using that criteria, then, hasn't the 
President's escalation plan failed to meet its stated goal?
    Mr. Walker. As of this point in time, it has not achieved 
its desired outcome.
    Senator Menendez. And here is our challenge--I believe your 
report said that the Iraqi Government has not fulfilled the 
commitment it first made in June 2006, to advance legislative, 
military, and economic measures that would promote national 
conciliations among Iraq's warring factions. Is that a fair 
statement?
    Mr. Walker. That's correct.
    Senator Menendez. Now, I know the administration doesn't 
care for benchmarks, or they want to move the goal posts. The 
problem is, no benchmarks provides for no accountability 
whatsoever, especially to the American people and the 
Congress--which has a fiduciary responsibility to the lives of 
those who serve, and to the national treasury. Ultimately, you 
need to have benchmarks in order to have accountability. And 
benchmarks without consequences are only aspirations, and even 
those aspirations, clearly, are not being met.
    Turning to the security benchmarks, I believe the final 
report says that they have not met the benchmarks to eliminate 
militia control of local security, they have not met the 
benchmark to eliminate safe havens for outgoing groups, they 
have not met the benchmarks to ensure even-handed enforcement 
of the law, they have not met the benchmark to increase army 
units capable of independent operations, and they have not met 
the benchmarks to ensure that political authorities are not 
undermining members of the Iraqi Security Forces. Is that 
correct?
    Mr. Walker. Senator, they partially met the one that deals 
with no safe havens, but the others they have not met.
    Senator Menendez. So, all of the others they have not met; 
they have only partially met the one to eliminate safe havens 
for outgoing groups?
    Mr. Walker. And they partially met the one to provide 
brigades to support Baghdad operations.
    Senator Menendez. Do you believe we can consider progress 
on the security front a success, if only two out of nine 
security benchmarks have been met?
    Mr. Walker. It's obviously not acceptable progress as of 
this point in time.
    Senator Menendez. Now, let me ask you--I'm concerned about 
the difference between what we saw in the draft, and what we 
saw in the final version. Because--and I have exceptional 
regard for your work, and the work of the people at the GAO, I 
also understand that in the history of this war, we have seen 
real concerns about how reports started and where they ended, 
and the influence generated to try to amend reports. I'm 
concerned that there are some changes in this report that are 
very significant.
    For example, the Bush administration claims that the 
security situation is improving. The draft GAO report says, 
``It is unclear whether sectarian violence in Iraq has 
decreased.'' This is a key security benchmark, since we 
received divergent views from various U.S. agencies. But, it 
seems that final report changed that, and changed it in a way 
that took out that element of divergent views for various U.S. 
agencies.
    Mr. Walker. I don't believe it did take it out, and it is 
still a ``not met,'' Senator. The only thing that changed on 
the bottom line between our draft report and the final report 
is item nine, providing three trained and ready brigades to 
support Baghdad operations. That went to a ``partially met.'' 
The reason that went to a ``partially met'' is not because of 
what the Defense Department provided us, my own staff provided 
me additional, secret and classified information that, based 
upon our review of that information, I made that judgment 
before we even heard anything from the administration.
    Senator Menendez. Let me read you another part of the 
report I wrote down, verbatim. This is what I understand the 
report says. In the draft report it says, ``While the Baghdad 
security plan was intended to reduce sectarian violence, U.S. 
agencies differ on whether such violence has been reduced.'' 
And the final report, it changes that. It changes that part 
that says, ``U.S. agencies differ on whether such violence has 
been reduced,'' and it says, ``Measuring such violence may be 
difficult since the participants' intent is not clearly 
known.'' That's a very significant change.
    Mr. Walker. Well, I think if you look at our final report, 
and if you also look at my testimony, and I'll ask my staff to 
try to pull out the words right now, while the words may have 
changed, the bottom line did not change. It is a ``not met.'' 
And, we might have changed the words somewhat, but in 
substance, our conclusion has not changed. The fact is, is that 
there are differing numbers, and differing opinions about 
whether or not sectarian violence has come down, and in 
addition, there are, there are differing degrees of reliability 
with regard to some of the information that exists.
    Senator Menendez. Well, let me finalize on----
    Mr. Walker. Sure.
    Senator Menendez [continuing]. That I am concerned, and I 
urge you to look at the draft report versus the final report, 
including the GAO's criticism of the administration's statement 
that security is implementing, and the administration's July 
report. And I believe that your draft report was far more 
critical of the information-sharing of the administration, than 
what your final report says. And if that is the case, I would 
like you--for the record--to give me the explanations of the 
difference between what the draft report said, and in the three 
different instances I presented to you--and what the final 
report said. And, who suggested to you that it should be 
changed, and why those changes were made. Because they go to 
the very core, in my mind, of whether or not, as we debate this 
issue, moving forward, if those differences are not 
insignificant, particularly in the security context.
    Mr. Walker. Senator Menendez, my staff has told me that 
some of the language you're talking about is in our classified 
report. I recall seeing the language, it is not in the 
unclassified version, but it is in the classified version. And 
so, I'll be happy to talk to you separately about that.
    Senator Kerry. Thank you, Senator Menendez.
    Senator Coleman.
    Senator Coleman. Thank you, Mr. Chairman, I would just like 
to follow up on this last issue on sectarian violence.
    As you've indicated in this report, that you have data, 
until the end of August, is that correct?
    Mr. Walker. That's partially correct.
    Senator Coleman. And in terms of the issue of sectarian 
violence, and I just got back from Baghdad yesterday--I was 
with General Petraeus Sunday night, or Saturday night. And his 
data goes through August. And I think the General would say 
that the surge was in full-force in mid-June, is that correct?
    Mr. Walker. That is what he said publicly.
    Senator Coleman. And that the data from, and your data is 
in the initial report, he thought was through July, in fact, 
you've talked about that, you've compared the violence in July, 
and going back to one other period, that is the period you 
used?
    Mr. Walker. Let me clarify, Senator. The charts and graphs 
that we use only go through July, but we have received 
information from the Pentagon, and talked to people as recently 
as August 30. We had asked them for the data for August. They 
were unable to give us the data through August, but we obtained 
their views for what the situation was, as of August 30.
    Senator Coleman. I recall the language in there. There's a 
comparison of July versus other periods. My point is, I've seen 
the data in August, and the data in August would, I think, be 
very clear about a reduction in violence. General Petraeus has 
those charts, that they show the hotspots in red in Baghdad. 
The area we're talking about, I'm not talking Anbar, but by the 
end of August, at least, the data would be very clear, showing 
a reduction in violence. You don't have--do you have any 
evidence that counters that?
    Mr. Walker. Senator Coleman, first we have an unclassified 
version, which we're talking about today. Then we have a 
classified version, without getting into detail, let's just say 
that there are several different sources, within the 
administration, on violence. And those sources do not agree.
    So, I don't know what General Petraeus is--has given you. I 
don't know which sources he's used, but part of the problem 
that we had in reaching a conclusion about sectarian violence 
we could not get comfortable with the related methodology.
    Senator Coleman. What you're saying is you have then seen 
the data. You haven't seen the data for August.
    Mr. Walker. We asked for, but did not receive the 
information through the end of August. But there were 
discussions that were held that talked in general terms about 
August, but they haven't given us the data yet. You're correct, 
Senator.
    Senator Kerry. If I can comment, Senator Coleman. I'm told 
that traditionally this is something we ought to get a handle 
on, that each August over the last year, and now you have to 
measure it against the prior August, not just the prior months.
    Senator Coleman. Actually, the charts do show--that I've 
seen--show the data in terms of seasonal, but then make it very 
clear that, it is factored in that it's seasonal, but the 
violence level is down. General Petraeus is going to be before 
us. I just want to make sure that what I'm hearing from you, if 
you didn't see that data.
    Mr. Walker. That's correct, Senator.
    Senator Coleman. As I say--let me say this. The question 
you ask: What's our role? It's one thing to say we're fighting 
al-Qaeda, it's another thing to say we're refereeing a blood-
feud between, not just Sunni or Shia, but in many cases what we 
saw in Karbala recently between Shia and Shia. I sat down with 
the head of the Badr Brigade last week. They're in pitch battle 
with Jaysh al-Mahdi in Karbala recently, so I think there's a 
difference.
    If you asked the question, I'd just still have to say that 
one of my colleagues talks about whether this is helping us in 
our fight against, global war against al-Qaeda, one Senator's 
perspective. I have no doubt that the fight against al-Qaeda 
right now is being centered in Anbar. I think General Petraeus 
will tell you that. I think General Gaskin would tell you that. 
I think you would tell you that, it's not just its anecdote, 
but they'll tell you that folks come across the border and 
here's how we deal with them. And, I also think they would tell 
you that in Anbar they push them back, that they don't have 
this, al-Qaeda doesn't have the support of the population 
centers.
    And in part, and I think the main point here is, that not 
just what we're doing militarily, but the local population has 
turned against al-Qaeda. And so, you have Sunnis turned against 
al-Qaeda, and I think that has tremendous implications in the 
Global War on Terror. And the question that you raise, I think 
has to be addressed, is how applicable is this to other areas.
    Clearly, what General Petraeus supports is a changed 
strategy and says we counter this insurgence, we counter this 
militarily, but we also turn the population centers against al-
Qaeda and working with us. And, that becomes the real 
challenge.
    Mr. Walker. Senator Coleman, as you properly pointed out, 
progress has been made in Anbar province. As you properly 
pointed out, al-Qaeda was a significant presence with regard to 
that province, but that province is not necessarily reflective 
of conditions elsewhere. And, I think you need to find out, Why 
did things change?
    You are correct that the tribal chiefs decided to rebel 
against al-Qaeda. Now, whether they rebelled because of al-
Qaeda's tactics and what they did, and it just got so 
ridiculous that they wanted to rebel from al-Qaeda or because 
of what we did. I don't know. But the key is what happened, 
why, and to what extent is it relevant and transferable to 
other parts of Iraq.
    Senator Coleman. I think we have to understand that. As I 
say though, let me also express the same point you have, that I 
think there's consensus on terms of the performance of the 
Iraqis and the performance of Maliki. The question, though, 
that has to be answered, is with that, if we were simply to go. 
What would be the consequence if we go an X number of months, 
what's the consequence? The report of the Special Investigator 
General for Iraqi Reconstruction talks about ethnic cleansing. 
They're actually evaluating the PRTs, the ethnic cleansing if 
we leave. So, those are issues I think we have to address and 
understand.
    Let me just ask one other question about the revenue-
sharing. Because clearly, there is no law passed. The oil, 
there's no law that has been passed, but in my discussions in 
Iraq last week, and I understand that Maliki will be in Anbar 
on September 6. That they distributed already about $100 
million in one source of funds, $200 million in another source 
of funds and there's an indication of more money going to 
Anbar. That was one of the big issues, Sunni provinces not 
getting any money. So, in terms of again, of not meeting the 
benchmark, but if, in fact, money is now being distributed, is 
that, can one then say that we're moving forward in that area, 
which is a critical area?
    Mr. Walker. Well, first of all I don't have information on 
whether or not that money is being distributed. Obviously that 
is something I think you ought to consider. But I would, 
however, note that with regard to the reconstruction item that 
I talked about, which is one of the benchmarks, merely because 
the Government has noted its intent to allocate money, merely, 
whether they have allocated money doesn't mean they've 
delivered. They don't have a very good track record on 
delivery.
    Senator Coleman. And I agree. They have got to deliver and 
that's really, really the measure. Really, my only point being 
is that you may not pass a law, but if for whatever reason, you 
know, maybe Baam Sauis has pushed Maliki, and you've got cash 
on the table. If the Sunnis start getting something in the end, 
maybe they get buy-in at some point, and again, the Iraqis 
haven't done it, Maliki hasn't done it, he's not consistently 
done it.
    Mr. Walker. Then the question, Senator, would be: Is it a 
one-time thing or what type of mechanisms exist to provide 
reasonable assurance that it will continue to happen in the 
future? I mean, part of that comes back to the issue of 
reliability and sustainability. Last thing--several Senators 
made comments and that I would just like to respond to.
    Just like we used our independent and professional judgment 
to say that some of these benchmarks should be shown as 
partially met, rather than not met. There were circumstances in 
which we felt that was a better reflection. Now, I hear a lot 
of talk about are we in Iraq or are we out of Iraq. I mean, 
that to me seems to be a little bit dramatic, too. I mean, this 
region is a tough neighborhood. It has a long history. I've 
heard people on both sides of the aisle say, ``It's not a 
matter of whether or not we're going to have a presence in 
Iraq, it's what size the presence is going to be, where is it 
going to be, what is it going to be doing, and for how long?'' 
And, there's a difference between whether or not we have a 
presence within Iraq under all those conditions, and whether or 
not we have a presence in the region. Because it's a tough 
neighborhood with some tough players and some strategic 
interests for our country.
    Senator Coleman. We're going to be in Iraq a long time. The 
question is what's our role.
    Senator Kerry. Thank you, Senator Coleman.
    Senator Casey.
    Senator Casey. Thank you, Mr. Chairman.
    Mr. Walker, we want to thank you for your report today and 
the work of your staff and the General Accountability Office 
overall and the conclusions that you reached.
    I think it's important to point out again, what you had 
said at the early part of your testimony about the way your 
office works. You're an independent Government agency. When you 
do a report like this, the work and the conclusions are guided 
by standards, the Government accounting standards, or 
Government auditing standards. The list of agencies and people 
you interviewed are numerous. I thought it was also important 
to point out, as you mentioned in your testimony, about the 
hundred or so reports and testimonies about Iraq the GAO has 
issued just since 2003. So, over a hundred reports, all of 
those interviews, as well as the standards.
    And, I think that's critically important, because we're 
going to hear a lot from--we'll hear from General Petraeus, 
we'll hear from Ambassador Crocker. When I was in Iraq in the 
early part of August I met with both of them. And, I'm sure 
we're going to get a lot of different points of view here. But 
I think this is a critically important fact about the 
independence and the thoroughness of the work the GAO does. 
And, when you see one out of eight legislative benchmarks and 
two out of nine security benchmarks are the only ones that have 
been met, I think the work that I see in this report is 
consistent with, and gives even more meaning to what I saw when 
I was in Iraq. No sense of urgency by this Iraqi Government to 
move forward, to create a government of national unity, that 
Senator Hagel was pointing out, can govern itself, can have a 
police force that's corruption-free, and can have an army, a 
security force, a defense force that can take on the enemy, not 
just for a couple of months or couple of years, but for many 
decades of a generation.
    And, that's why I wanted to ask you first about No. 15. The 
benchmark No. 15, which reads in part, I'll read all, the whole 
benchmark and then ask for your comments. ``Increasing the 
number of Iraqi Security Forces, Security Forces units capable 
of operating independently,'' which I think we used to hear a 
lot more about last year than we've heard this year. When we're 
talking about that, and correct me if I'm wrong, when we talk 
about units that are able to operate independently, we're 
talking about the highest level that the Pentagon has put a 
label on, so to speak. In other words, that these units can 
take on the enemy independently, they don't need American 
forces in the lead, they don't need American forces behind 
them, they can take on the enemy independently. And the 
calculation is as follows: If your number is now at six units, 
we're talking about--and you and your staff correct me if I'm 
wrong--750 troops times six, meaning 4,500 troops. So, in a 
country of at least 25--some people think it's 27 million 
people--in a country of 27 million, right now, you have only 
4,500. Let's round it off, so let's say it's 5,000, let's even 
say we're way off and say it's 10,000, but I think the number 
is 4,500. If it's 4,500 troops that are able to take on the 
enemy independently in a country of 27 million. I just want to 
make sure we have our numbers right on that.
    Mr. Walker. They're assessed on a battalion basis. There's 
roughly about 800 or so per battalion. The Iraqi Army has 
roughly about 120 battalions, so we're assessing at that level. 
They are being assessed and we're not doing the assessment, 
it's the military that's doing the assessment, based upon 
different levels of readiness. There are multiple levels of 
readiness. And, what we're saying, is between the period of 
time, March to July 2007, the number of Iraqi battalions that 
were deemed to be able to operate at a level of readiness, that 
the Pentagon felt they could operate independently, declined.
    Senator Casey. From 10 to 6?
    Mr. Walker. It's classified. I'd be happy to talk to you 
separately.
    Senator Casey. Well I think it bears repeating, and some of 
that was in the public press about the number, but it bears 
repeating that we're talking about a security force which has 
received substantial support from the American people, tax 
dollars spent for the stated purpose of training these forces 
so they can reach that level one. Even if you go to level two, 
obviously that involves American troops. So, I think it's very 
important that you pointed that out in the report.
    And I think also, just going to the end of the report on--
in terms of recommendations. You made three major 
recommendations. The third one, I just wanted to highlight 
here. You recommend on page 13 of the report, that the 
Secretary of Defense and the heads of other appropriate 
agencies provide additional information on the operational 
readiness of Iraqi Security Forces supporting the Baghdad 
Security Plan, particularly information on their loyalty and 
willingness to help secure Baghdad.
    I don't ask that as a question, but I think it's critical 
that your report specifically recommends that the Secretary of 
Defense do that. And, I think the American people have a right, 
and should have an expectation, that that kind of information 
be made readily available. I would hope that the administration 
would follow that recommendation, as well as your others.
    I also wanted to point out----
    Mr. Walker. May I mention, Senator, that----
    Senator Casey. Sure.
    Mr. Walker [continued]. We had recommended to the 
Department that it's not just readiness, it's reliability, 
which is what we're going to. And, they have agreed with our 
recommendation. So, it's my understanding that they intend to 
adopt our recommendation in that regard.
    Senator Casey. Of course, some of the government leaders we 
met with in Baghdad were pleading for time; patience. Turn back 
the American clock to synchronize with the Iraqi clock. Every 
time they do that, though, our troops and their families pay 
the whole price.
    I just wanted to make two more points before I conclude. 
One is on provincial elections, No. 5. The conclusion on No. 5 
is, or the status I should say, is ``Commission law enacted and 
implemented, however supporting laws not enacted,'' which is 
terribly disturbing, when they haven't enacted laws.
    No. 6 and No. 7 about amnesty and also about militia, 
probably more importantly on No. 7. ``Enacting and implementing 
legislation establishing strong militia disarmament program.'' 
These words jumped out of the page under the status column. On 
militias, one of the driving forces of the sectarian problem in 
Iraq, one of the driving forces that kill Americans every week 
of this war. The following words appear in the status column. 
``No law drafted.'' I mean, you're not even talking about 
implementing something, you're not even talking about something 
complicated. They don't even have the law drafted according to 
your conclusion. That is incredibly disturbing and should be 
disturbing to the American people. When our fighting men and 
women are out there dying and bleeding on the battlefield, and 
they can't even draft a law to deal with militias. It's 
outrageous.
    I know I'm over time. I'll have more later. But, I want to 
thank you for your work.
    Senator Kerry. Thank you, Senator Casey.
    Senator Corker.
    Mr. Walker. It's my understanding, if I can, that we've 
gotten some information that allegedly there's going to be a 
law on the militias issue. We're issuing a report tomorrow that 
provides more information on the militia issue, but that report 
will be a classified report. And, so I would commend it to you, 
Senator Casey.
    Senator Kerry. Thank you.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    And, Comptroller Walker, I'm a fan of your work. I wish 
that all of us in the Senate would pay as much attention to 
some of the fiscal issues in the out years, as we do this 
report. And, I hope in the next short period of time we will do 
that, but thank you very much for this report.
    You know, this is a--I guess an accounting report if you 
will. Like most of us are used to receiving and they're pretty 
antiseptic. They're either yes, no, these are the facts, this 
is the way it is. Let me just--and so I don't think there's 
really as far as a prolonged hearing on the status of these 
benchmarks--it seems to me that maybe that's not necessary. I 
mean, it's a pretty factual report that you're giving. I'll 
know there will be other supplemental reports that we'll 
receive in secure settings.
    But, you know, typically when--when a firm comes in and 
does this sort of yes, no, these are the facts kind of report, 
there's kind of an exit interview. And, I think maybe a little 
bit of what we're doing today.
    I guess the first question I would ask is, based on your 
experiences in putting together this report--we set out, 
obviously, legislative benchmarks, but did we ask the right 
questions?
    Mr. Walker. Well, first I think it's important to 
reinforce, Senator Corker, that these aren't Congress's 
benchmarks, these are the benchmarks that the Iraqis set, and 
the Congress wanted to hold them accountable. And, I think 
you're exactly right. This is an accountability scorecard. 
Where do things stand?
    And, I think one of the things that we talked about a 
little bit earlier is--the question is not whether or not we're 
going to be in Iraq--the question is, Is that how long we are 
going to be Iraq? What are we going to be doing? From where are 
we going to be doing it? How are we going to end up assessing 
our progress? And I think, you know, you've gotten some 
information from us. You're going to be getting information 
from General Petraeus. You're going to be getting information 
from General Jones and others. And, I think, one of the things 
we talked about earlier is: What's the proper role for the 
United States? That is, to me, the key question. What is our 
proper role? Because, depending upon what the answer to that 
question is, you answer a lot of other questions about how many 
people, doing what, where, if you will. So, that's a question 
that's not in the benchmark, but it seems to me it's central to 
what the Congress needs to deal with.
    Senator Corker. Well, just to go down your line of 
questioning back. It seems to me that the role that we're 
playing is different in each province. Is that not correct? I 
mean, we have 18 provinces there, they're all very different. 
And, to a certain degree, in each of those provinces, our role 
is different depending on the progress that's being made there 
on the ground. Is that not correct?
    Mr. Walker. There are some differences, no question. The 
degree of stability and security varies widely, depending upon 
which province you're talking about. But I think the real 
question is--is, for example, to what extent should we assume 
primary responsibility for safe streets and safe neighborhoods, 
exclusive of going after al-Qaeda? I think that is a central 
question that this body, I would respectfully suggest, needs to 
focus on.
    Senator Corker. And, I think that has actually been a 
primary component of much of the debate that we've had. And, my 
sense is, in at least 5 to 7 of the provinces, of the 18 that 
are there, that there is a gradual change in that mission, is 
there not?
    Mr. Walker. There is, but then one has to look at where 
they are, what are the circumstances, how much population is 
there. For example, Anbar province, my understanding is that's 
about 5 percent of the population of Iraq, and it's not 
Baghdad. I mean, Baghdad is a separate province unto itself and 
that's the particularly acute situation right now, is Baghdad.
    Senator Corker. I would agree with that. So, then back 
though, as we mentioned, you know, this was something the Iraqi 
Government laid out as benchmarks. And so, we're asking those 
questions. What are some of the other questions, though, other 
than the one you just posed back to us, that if you were going 
in and doing an assessment on your own and designing the 
questions, what are the other questions that you might want 
answered, in doing what you're doing there on the ground?
    Mr. Walker. I think it's important that you have 
benchmarks, but I also think it's important that when you 
assess benchmarks, that you assess it on three bases.
    No. 1, where do people stand as of a point in time. No. 2, 
what type of progress is being made. Is it getting better, is 
it getting worse, or is it staying about the same. And No. 3, 
how can you provide the contextual sophistication of that 
particular benchmark. How relative and important is that 
benchmark. How does it fit in the bigger picture. And, in the 
sense of timing, what's a reasonable amount of time it ought to 
take in order to be able to achieve that benchmark. What are 
the milestones? We don't have milestones here. We have 
benchmarks, but we don't have milestones. And, to the extent 
that milestones have existed in the past, they haven't been 
met. And, they keep on slipping. And, there needs to be more 
transparency and more specificity with regard to milestones, in 
order to provide contextual sophistication for the Congress in 
making decisions in this regard, I believe.
    Senator Corker. It seems that the question that you're 
posing back to us, and I think it is one that we're going to 
answer, and that is--and I think we will, by the way, answer 
that over the next few weeks--but the role that we should be 
playing there, really is a security issue. I mean, they have to 
deal with their own legislative issues. We can't, certainly, 
deal with that in a democracy. What are one or two or three of 
the main components, in your mind, that keep the Army side of 
what they're doing from being able to accomplish the things 
they need to accomplish? Lay those out one, two, three. Because 
the fact of the matter is, the reason that we're taking a lead 
in some areas that we'd really not, like not to be taking the 
lead on is their incapability, if you will, of doing that 
themselves. So, what do you think is leading to, following on 
to Senator Casey's comments and others, why is it that they 
have just seemed, after 4 or 5 years, not to have the ability, 
if you will, to secure themselves?
    Mr. Walker. Well first, I think that the political and the 
security are integrally linked. I don't think that you can 
separate them and say that they are separate things. The simple 
fact of the matter is, is that they need to make more progress 
on the political front, and if they do make more progress on 
the political front, that will end up having some implication, 
I think, with regard to the security forces. At the same point 
in time, you've got to have a reasonable degree of security on 
the ground, in order to provide the conditions for people to 
reach political compromises.
    Let me clarify what I mean by that. You have Iraqi Security 
Forces. It's not just a matter of making sure you have enough 
with the appropriate degree of readiness and with--either be 
able to operate independently or have support, but that they be 
loyal. That they be committed to a unified Iraq and that they 
are committed to fight on that basis. And frankly, you know, 
until you reach some type of political reconciliation, I'm not 
sure if you're going to be able to achieve that objective when 
there is a power vacuum that exists in that country.
    And given, as several Senators have said, you have many 
hundreds of years of history that exist in that region long 
before we ever existed. So, I think, one has to just focus, not 
on how many you have and whether or not they can operate 
independently, whether they have adequate support, but also, 
whether or not they are loyal to a united Iraq. And, that is 
directly related, I think, to the political reconciliation that 
has to take place.
    But I do come back, Senator Corker. There is an issue of 
what is the proper role for U.S. troops. There's a difference 
between training and providing support to the Iraqis, 
logistical support, etc., and going after al-Qaeda, wherever 
they might be.
    Senator Corker. Both of which we're doing.
    Mr. Walker. Right.
    Senator Corker. But we're doing--we're doing better.
    Mr. Walker. Absolutely. But there's a difference between 
those two things and, in fact, we've spent about $19 billion on 
training and equipping the Iraqi Security Forces to date. But 
there's a difference between those two things and being on the 
front line in the streets, where we're the ones on the front 
line, maybe in partnership with Iraqi Security Forces, but 
we're not domestic forces, we're foreign forces.
    Senator Corker. Well, I think that's a--and I know my time 
is up--I think that's been sort of old news major point of 
discussion. I know it will be another major point of discussion 
this September. We are, in fact, doing the first two. And, I 
sense with the work that is happening on the ground with some 
of the tribal leaders, it does enable us, which is not 
obviously anything that's being measured by these benchmarks, 
it is enabling us to move to, sort of, other missions. So, with 
the tribal leaders taking on more of the daily door kicking 
down and those kinds of things. But, I appreciate your point of 
view and actually think that the question you asked is the 
question we'll be discussing, or one of the questions we'll be 
discussing the next few weeks.
    Thank you, Mr. Chairman.
    Senator Kerry. Thank you, Senator Corker.
    We'll start a second round.
    Comptroller Walker, let me sort of run through a few basics 
here. The principle success that has been pointed to by the 
President and the administration, and particularly underscored 
by his visit yesterday, is Al Anbar. Now, it is accurate, is it 
not, that Al Anbar is, first, principally Sunni?
    Mr. Walker. Correct.
    Senator Kerry. Second, it has been relatively isolated from 
the rest of Iraq and sort of independent as it has its own 
absence of resources and it's fairly tribal and tribally 
managed.
    Mr. Walker. Relatively isolated. Correct.
    Senator Kerry. And, the al-Qaeda presence was sufficient 
there, that what it did was exhaust the patience of the Sunni 
tribal leaders to the point that they decided, you know what, 
that they would rather, sort of, work with the Americans for 
now to take out al-Qaeda because al-Qaeda is our No. 1 problem, 
as well. Is that fair?
    Mr. Walker. Well, I think that's something that has to be 
analyzed. I mean, why--they did change, there's no question. 
And the conditions are different in Al Anbar province today. 
And, while they're somewhat separate, it did serve as a conduit 
for al-Qaeda to be able to come in and out of Baghdad. So, I 
think we have to recognize that. But the question is, why did 
they change and is that temporary, is it longer term, and how 
much of that is transferable to Baghdad and other areas of the 
country.
    Senator Kerry. The accounts that I've read, even from some 
of our own troops working with these folks now, is that they're 
pleased that they, sort of, took on this cooperative attitude. 
But the attitude, basically, happened because their sons and 
daughters were being killed and raped and people in the cities 
were being, in their communities, were being attacked and they 
got fed up with it. And then----
    Mr. Walker. Some believe that they changed because al-Qaeda 
overreached.
    Senator Kerry. Correct.
    Mr. Walker. Now, I'm not saying that's true.
    Senator Kerry. So, you have your own judgment as to what--
--
    Mr. Walker. No; we haven't made a judgment, we haven't made 
an independent judgment on that.
    Senator Kerry. Would you make a judgment today, that it is 
possible that if they, in fact, did that and their interests 
were otherwise served because of the absence of Shia 
reconciliation, that they would begin to decide, well, that 
they're going back into insurgency mode and do what they think 
they have to do to strike out for their independence?
    Mr. Walker. I think they would look to see progress on the 
political front to make sure that their own interests are 
protected. So, in the short term, clearly you can make a 
decision as to what makes sense from a tactical standpoint, but 
progress has to be made on the strategic front, with regard to 
political, in order to make a judgment on which position is 
going to be longer term.
    Senator Kerry. I couldn't agree more. And, the bottom line 
is, that that judgment thus far in most of Iraq is that they 
have not made the decision to either join up or become part of 
the team, because there is still a sense of, No. 1, the 
sectarianism within the militias, which are vying for power. 
And No. 2, the fundamentals schism between Shia and Sunni 
that's unresolved.
    Mr. Walker. It's unresolved.
    Senator Kerry. Did you draw a conclusion as to what 
resolution would take? Is there any absent quotient that you 
can actually put your finger on, that says this will make a 
difference in that reconciliation, in your judgment, after all 
that you've been through here?
    Mr. Walker. I think unless and until the elected 
representatives of the people are willing to make the comprises 
necessary and pass the legislation and publicly support it, 
that's key. I know that's not easy to do because we have our 
own differences in this country.
    Senator Kerry. But that is the fundamental issue, isn't it?
    Mr. Walker. I think that's probably the fundamental issue.
    Senator Kerry. Is there anything that any troop on the 
ground can do to make that happen?
    Mr. Walker. To the extent that one can provide additional 
stability and security in order to be able to, for those 
elected officials to feel more comfortable in making those 
compromises, theoretically, yes. But you're not going to solve 
the problem militarily.
    Senator Kerry. But when you say, theoretically yes, isn't 
that exactly what the escalation set out to do?
    Mr. Walker. And the question is, How much progress has it 
made and where has it made progress, and to what extent is that 
progress----
    Senator Kerry. You've just reported that there's precious 
little progress and they haven't made almost any significant 
progress politically. The very thing the escalation was--look, 
I hope the surge works. If it works, terrific, but the bottom 
line here is that you got to have a political reconciliation 
but there's nothing to indicate that Iraqi politicians are 
prepared to embrace that political reconciliation. To the 
contrary, Cabinet Ministers are walking away, the legislature 
isn't meeting, the committees aren't doing their work, and you, 
yourself, have said that the government is dysfunctional. So, 
what's the presence of American troops on the front lines going 
out into communities and finding IEDs the hard way? What's that 
going to do?
    Mr. Walker. I think one of the debates that you need to 
have is, Is it a proper role for U.S. troops to be doing that? 
And does--and if it's decided that U.S. troops aren't going to 
play that front line role and they're going to focus on the 
things that Senator Coleman talked about before, that we are 
doing elsewhere and arguably should continue to do elsewhere, 
then what is the likely impact of that going to be on the 
ability to achieve political progress. Because ultimately, 
you've got to achieve that political progress. If you don't 
achieve that political progress, you're not going to have a 
unified Iraq.
    Senator Kerry. Were you able to determine, through the 
analysis that you made, what you think the stumbling block here 
is that may go back 1,300 years of history to the slaughter of 
Hussein in the desert and the differences between Shia and 
Sunni? Have we let out of Pandora's Box something that can't be 
put back or is there some equation that you've been able to see 
that could resolve those differences?
    Mr. Walker. Well frankly, I do think that there are a 
number of--of the issues that relate to the benchmarks that are 
relevant to whether or not one can achieve a stable, unified, 
and reasonably effective government. I mean, one of the issues 
that we've talked about is the de-Baathification issue. Some 
people believe that there was such a tough line taken on that, 
that people with competency were excluded from the ability to 
be able to help achieve a functioning government.
    So again, I come back to the area where there's been the 
least progress, is on the political front. As of this point in 
time, it's clearly been unacceptable progress. I don't know 
anybody who said that it has been acceptable. The question is, 
Is that likely to change in the near future and what, if 
anything, can our troops do in order to change it?
    Senator Kerry. I think, for many of us that question has 
probably been answered but we're certainly open to being proven 
otherwise, although I don't see the evidence of it. But the 
bottom line is, you've got more refugees, you've got more 
people leaving their homes. I understand the numbers of people 
leaving their homes has doubled in the last months. I 
understand that the middle class is effectively no longer in 
Iraq. It's in Jordan, it's in Syria, and other places.
    Mr. Walker. There's been a brain flight. There's no 
question about that.
    Senator Kerry. A capital flight.
    Mr. Walker. Yes. And, the other thing you have to look at 
is, on sectarian violence, as to what extend has the country 
changed, such that where you used to have more multiple-sect 
geographic areas, that is changing, such that you don't have 
that. I mean, that could be one reason why you could have a 
lower trend in sectarian violence.
    Senator Kerry. Some people have even dared to suggest, 
though they don't talk about it very much publicly, that this 
is a civil struggle that may have to be fought--that there's 
nothing we can do to prevent it. And, until there's an 
exhaustion in that bloodletting, nothing will resolve. What's 
your comment?
    Mr. Walker. I don't think it's appropriate for me to 
comment on that.
    Senator Kerry. Senator Lugar.
    Senator Lugar. Mr. Chairman, I think the hearing has been 
helpful in raising questions for discussion, because we're all 
going to have many hearings and many discussions in the coming 
days. And, too often our debates come down to a block of public 
represented by their Senators and Congressmen, who simply want 
to get out. We could not get out of Iraq fast enough, they say. 
And, any deviation from that is unacceptable. And, a block of 
people who say we support the President come hell or high 
water, if he makes mistakes OK, but after all, he's Commander 
in Chief.
    And, so I'm hearing, at least in this hearing today, we're 
trying to raise some questions that have to be answered, really 
by either of these groups. Because we are in a predicament that 
is very severe for our country, quite apart from the Iraqis 
that we've trying to help.
    I want to add just for the sake of argument, a few more 
questions that I may discuss as we proceed. First off, one 
solution that some have suggested of a realpolitik variety, is 
that we ought to accept the fact that Shiite control will at 
least bring about unity. The Shiites would have more army, more 
armed forces, more people trained. We'd train more of them. 
They have the support of Iran next door. In essence, we're 
talking a unified Iraq or Iraqis. Sunnis may not like it and 
the Kurds may, likewise, be disabused, but this is one 
solution.
    Now, that's not acceptable obviously, because we've been 
talking about democracy, a sharing of power, minority rights, 
all of the ideals that we espouse. But nevertheless, it could 
be that Prime Minister Maliki is not incompetent, he just 
simply sees the future for him, for the people he supports. 
It's a zero-sum game. If you liquidate it, you lose. And, you 
know, I think the failure to recognize the real politike 
aspects that face Iraqi leadership may lead us to some 
sentimental hopes that the Iraqis would somehow repent, but 
that might not be the case.
    Meanwhile, we will have at least a couple of situations to 
observe. We've been talking about Anbar, Diyala hasn't come 
upon its own solution yet, but there may be something there, 
and Baghdad as well. But now in Basra, as the British withdraw, 
the reports are that there are several Shiite militias vying 
for power, and they've not resolved their dispute among each 
other, as to which one is going to predominate, quite apart 
from how you get rid of one or the other of them. So, it may be 
interesting outside of Baghdad and Anbar, to watch how things 
play out.
    And so, the question comes from some quarters, Why don't we 
surge in Basra? Why is Basra exempt from the surge? Well, for 
the very good reason, we don't have the troops to do that. It's 
physically impossible for us to surge in every area of Iraq, so 
in Basra, we're going to have a test case, where the British 
have decided that they've done enough, essentially, and are 
moving stage left.
    With the Kurds, we've not heard too much from them 
recently, except we hope that they don't get in trouble with 
Turkey in the meanwhile, either on the border with PKK 
controversies or by pressing Kirkuk. We know that a referendum 
was supposed to come in the constitutional framework to work 
through the various elements of Article 140, but it hasn't 
quite been arranged thus far. And, for good reason, because the 
Turks are saying this is anathema to them, this is a major 
foreign policy trial that is going to cause conflict if they do 
any such thing or try to control oil resources for themselves, 
or even try to maintain the degree of self-government in those 
provinces. That has worked reasonably well for them, granted 
with our protection during the nineties with overflights and 
what have you. So, you have sectors of the country that may be 
proceeding quite apart from the surge of what happens in the 
legislative arena in Baghdad.
    And, I hope that even if our administration does not 
outline some alternative, as I wish they would, they will at 
least listen to some of these hearings, some of the 
discussions. Somebody may pick up an idea or two in the 
process. Because absent that, all that I'm describing is going 
to occur anyway, despite protestations that the surge is 
working or Anbar is a success, or somehow or another the 
legislature is back in Baghdad.
    And, the basic question you've raised throughout the 
hearing, What is our proper role at this point? Physically what 
are we doing? What can we be expected to do? And, if we decide 
not to do it, how do we leave, successfully? Do we fight our 
way out? Physically, how do you disengage from such a 
situation? Or do we find safer spots to continue training, 
monitoring, and if so, why haven't we brought the rest of the 
countries around Iraq around the table, continuously? Not the 
spasmodic meeting on the great occasion when we see a Syrian or 
Iranian, but see them every day and make them look at Turks and 
Saudis and all the rest, so everybody understands the 
implication of what is occurring here.
    I hope that will occur. I pray that it will occur, because 
absent that we have very great problems of interference, as 
you've suggested in your testimony. This is not an isolated 
island. Tribalism or sectarianism are not contained with the 
borders. And, one of the great fears of immediate withdrawal of 
the United States, looking at what occurred after the Lebanese 
crisis last year, everybody might open up again and really have 
a go at it, not just in Iraq, but in the whole area.
    So, I appreciate this hearing very much. I thank you, Mr. 
Chairman, for pulling this together today, early on, to raise 
some of these issues. Our hearings inform us, as well as the 
administration, and maybe the outside world. We're digging 
through these things, and hope to stimulate some creativity.
    Mr. Walker. Senator, I think it's important that we have to 
step back now. A lot of people have different opinions about 
whether or not we should have gone into Iraq to begin with. But 
the fact is, we're there. And, so the real question is: What 
are we trying to accomplish? What is reasonable and realistic? 
Who should be responsible for what? What are the metrics and 
what are the milestones? So, you need milestones, not just 
benchmarks. What kind of milestones are we achieving to try to 
break down the role? What is our role versus the role of Iraqi 
Security Forces versus the role of the Iraqi Government? You 
can't force democracy. They've got to want it. They have to 
make it happen.
    Senator Kerry. Senator Casey.
    Senator Casey. Thank you.
    I have basically two questions. And, I wanted to get them 
quickly and I won't take the whole 7 minutes. But, just by way 
of clarifying the record, my reference to the 10 units versus 6 
now. The number of independent units declined from 10 in March 
2007 to 6 in July 2007 and the source for that is the 
Washington Post. You don't have to comment on what's in this 
chart.
    Mr. Walker. I think the source of that was a leaked report 
that came from the administration, that had not gone through a 
classification review yet. So, you're dealing with a public 
source.
    Senator Casey. We were told a long time ago, if it's in the 
newspaper, it must be correct. Just two questions, two serious 
questions. One is on the issue of reporting of Iraqi sectarian 
violence.
    Now, we know that quarterly the Department of Defense makes 
reports on a number of things, including sectarian violence. 
Here's information about two of those reports. The DOD reports, 
the March Defense Department report lists over 900 ``sectarian 
incidents'' resulting in fewer than 1,300 deaths. So, 900 
incidents to 1,300 deaths. Then in June, of course it's 
reporting on all of 2006, then in June they changed it, and now 
the June report says a thousand ``sectarian incidents'' 
yielding over 1,600 deaths. So, they're changing the numbers 
there. I will let the Defense Department explain why that is.
    But, how does GAO, the General Accounting Office, assess 
sectarian violence numbers, and to what extent are the reports 
that DOD provides on this critical issue--that drives a lot of 
the debate on this war--what are the discrepancies and how does 
your analysis differ, if it does, from DOD's analysis on 
sectarian incidents?
    Mr. Walker. Senator, we have more information than our 
classified report with regard to this issue. And, don't worry, 
I'm not going to reveal classified information. The simple fact 
of the matter is, there are different sources, with different 
estimates, with different degrees of reliability, on overall 
violence, which is one of the reasons we were not able to have 
a rating higher than we came up with that. In addition, we 
could not get comfortable with the methodology for assessing 
sectarian violence. And, I would recommend the classified 
report to you and would be happy to make our people available 
to brief you further on that.
    Senator Casey. Thank you. One last question, if you can 
answer it just briefly or in kind of a headline format. One of 
the critical questions that we all face when debating the war, 
is how to bring about or how to--actions our Government can 
take to incentivize or stimulate reconciliation in Iraq and 
what happens on the ground, you've pointed to that as a key 
component to resolving this. The so-called Sunni buy-in, which 
is a shorthand for getting the Sunnis to participate in the 
Government at a level that will bring about a real 
accommodation. In your judgment, if you could list some, just 
one, two, three, or whatever the number is? What are the key 
things that have to happen for that kind of Sunni buy-in for 
reconciliation to lead to a government of national unity? 
What's the----
    Mr. Walker. A couple of things off the top of my head might 
be necessary for them to be--feel comfortable. They have a 
meaningful role in the government, but obviously it's not going 
to be what it was in the past when they ruled Iraq in a 
totalitarian manner under Saddam Hussein. Second, that they 
feel that they are meaningful minority rights, of which there 
has been progress made, considerable progress. And third, that 
there be some equitable distribution of the nation's resources. 
The nation's resources being primarily energy-related 
resources. So, those would be some things off the top of my 
head.
    Senator Casey. Thank you.
    Senator Kerry. Let me just follow up on that a minute. Do 
you think that there is in the Sunni minority a presence that 
is determined to return to power, that believes that they were 
born to the manor and that it's their job to run Iraq, that 
they've always run it, that they're the ones who have run it 
best and that they're going to get it back.
    Mr. Walker. You're not going to satisfy those people.
    Senator Kerry. What percentage do you think they are? Is 
there any way to determine?
    Mr. Walker. Senator, I don't have a basis using GAO 
standards and methodology to give you a percentage.
    Senator Kerry. But you didn't pick that up in any kind of 
discussions. Nobody said, ``Well, it's an X, you know, it's a 
minority of X or Y.''
    Mr. Walker. There's some additional information in the 
classified report we issued on this. It might be helpful to you 
in that regard.
    Senator Kerry. With respect to the safe havens, Prime 
Minister Maliki himself assured the people of Iraq and the 
United States that there would be no safe havens in Iraq for 
insurgents and terrorists. Your report concludes that this goal 
has only been partially met. The question is then, why, in your 
judgment, considering the strength of the Shia, particularly 
given Moqtada al-Sadr's presence and other factors, why has his 
haven, particularly, been sort of left alone--I think there's 
only one entry there or something that is blocked, if I recall?
    Mr. Walker. The primary reason we gave that a partially 
met, was because of Sadr City, where there are not any security 
operations that are manned on a continual basis within Sadr 
City.
    Senator Kerry. And, what's the game; what's being played 
out here? What does that represent, fear of Moqtada al-Sadr, 
uncertainty, a deal, a backdoor deal?
    Mr. Walker. That's a Shia stronghold where there's 
significant Shia activity. What is different is there have not 
been any preclusions of United States forces or Iraqi security 
forces conducting operations there. And, in fact, a number of 
operations have been conducted in Sadr City. However, when you 
look at--in the material we've provided and also supplemented 
in the classified report, where you look at where the joint 
security centers are and other factors. It's obviously not the 
same as the balance in Baghdad. And, that is why we have rated 
it as partially met.
    Senator Kerry. I don't know if it was Senator Coleman or 
Senator Lugar who made the point about Prime Minister Maliki 
sort of seeing the handwriting on the wall here in the long 
run. But the question is, Do you make any conclusion with 
respect to his intentions here measured against, I think there 
were several Senators, that he may not be incompetent, it may 
be that he just has a different vision of where it's coming 
out. And, given their majority status given to them at the 
ballot box now, one that was denied them for centuries, they 
have something they don't intend to give up. And so, the 
shorthand is that some people conclude that Maliki is 
essentially determined to represent the Shia interest ahead of 
Iraqi interests and that he is a Shia Prime Minister and not a 
Prime Minister for all of Iraq.
    Mr. Walker. I wouldn't want to speculate as to what Prime 
Minister Maliki is thinking and what his intentions are.
    Senator Kerry. But do you see actions that, in fact, 
reinforce that conclusion? The lack of action, the lack of 
progress?
    Mr. Walker. What I see more than anything else is the 
failure to achieve key political progress. He is obviously the 
leader as Prime Minister of Iraq, but as you know, there are a 
lot of power players in Iraq. And, even in long-established 
democracies, including ours, sometimes it is difficult for the 
leader to be able to make things happen as quickly as one might 
like because of different political and other forces. But it 
would just be mere speculation for me to say he has an agenda. 
It's a very difficult situation.
    Senator Kerry. Well, the majority of the forces thus far 
trained are Shia. And, as long as the United States is training 
and supplying Shia, it's to the Shia's advantage to grow 
stronger. In terms of the long run, it's my understanding 
there's also significant Iranian Revolutionary Guard activities 
in the southern part, also training people. So, I can certainly 
see a long-term strategy here that doesn't play to 
reconciliation at all. And, we just spend a
lot of dollars and a lot of lives and, in fact, play into their 
longer strategy.
    Mr. Walker. Well, the Shia are the majority and they have a 
significant majority.
    Senator Kerry. But you didn't analyze this. Its not part of 
your analysis in any way, you simply look at the benchmarks, 
per se? We can draw our conclusions from those benchmarks.
    Mr. Walker. That is correct, Senator. We're just trying to 
provide information consistent with the statutory mandate.
    Senator Kerry. The most important conclusion that you've 
drawn is that, thus far, at least, the escalation and the 
purpose of it, which was to provide breathing space for 
political reconciliation, has failed. It has not provided the 
reconciliation in large measure and certainly on any of the 
important, most important benchmarks.
    Mr. Walker. The additional security that is achieved has 
not resulted in significant political progress. Political 
progress is essential in order to achieve the stated ultimate 
objectives for Iraq.
    Senator Kerry. Senator Coleman or anybody else?
    Senator Coleman. Thank you, Mr. Chairman.
    First, I want to say that I have a great appreciation for 
the GAO. My permanent subcommittee, the investigative work that 
Mr. Kunz and others do is absolutely outstanding. So, the 
quality of what you do is greatly appreciated.
    Second, I think your conclusion that the Iraqi Government 
has not fulfilled commitments it first made in June 2006, to 
advance legislative security and economic measures that would 
promote national reconciliation among Iraq's warring factions 
is unassailable. And, I think that's the concern. There's just 
no question about that.
    I also think your recommendations should be adopted by the 
administration. You've laid out three recommendations. 
Secretary of State should act upon those in terms of providing 
information, specifying status of some of these things. 
Secretary of Defense needs to provide information regarding 
some of the broader quantitative and qualitative measures of 
population security. The Secretary of Defense needs to provide 
additional information on the operational readiness of Iraqi 
forces. So, we get to the conclusions are unassailable.
    My concern, and also I think you raised the issue that I 
think is the issue, what is our role? If the Iraqis can't move 
forward in terms of reconciliation, we're not going to be in 
the role of being referees with the lives of our soldiers, 
lives on the line for either the sectarian violence. This is 
what we see in Baghdad. And, with this surge, I think Petraeus 
will say, we've quieted that down. I think that AIDA will, when 
all comes out, show that. But in addition to that not being 
referees, in terms of the Shia/Shia battles, at least in 
Karbala, between Moqtada al-Sadr's folks and the Badr Brigade, 
that has to be resolved.
    And, if we can't resolve that stuff, we will find ourselves 
in other areas in Iraq, making sure Iran doesn't extends its 
influence, making sure al-Qaeda doesn't regain the ground that 
it has lost, and probably making sure the Turks don't come and 
destabilize, one area of Iraq that is pretty stable.
    Just a statement, and my concern is, what we need to do is 
move the politics out of this on both sides and try to do what 
you've tried to do with this assessment, where I may disagree 
and not disagree. You're talking about have they met, have they 
met the benchmark? It's my understanding that, in fact, $100 
million in cash has been distributed to Anbar and that on 
September 6 distributed. And, in fact, when I was sitting in, 
when I was in Ramadi, I watched a meeting with a Marine Captain 
and Iraqi folks going over contracts. And, I walked in and saw 
the contracts that had been let and the money that has been 
spent. And, it's my further understanding, there will be an 
additional $70 million that Maliki himself will deliver. To me, 
that says folks are moving forward in an area that they have to 
move forward to assure the Sunnis are going to get something 
out of this. My sense is that the Sunni, the Shias don't know 
that they--they won't accept the fact that they won. And so, 
they are holding on and not moving forward. And, there's a 
price for not moving forward.
    The other concern and, you know, we look, some look at the 
glass half empty or half full. If we can be objective about it, 
the fact is that in spite of benchmarks not being met, in spite 
of what I consider Maliki's inability to produce consistently--
and that's a good point that you make--he was in Karbala and in 
the midst of this battle between the two, the story was told 
anecdotally as he walked into the Governor's office and saw 
somebody over there, said, ``Who's that?'' And, they said so 
and so and this was a JAM person and he said, ``Arrest him.'' 
Petraeus will say that they've taken down numerous Jaysh al-
Mahdi leaders. And, that Maliki hasn't stopped that. Again, 
consistency to the degree that it's changed things not enough.
    And so, you know, how do you get there and what's the cost 
for us? What price do we pay? I mean, there are a lot of 
questions here that have to be answered, but it's not, you 
know, there are no, there's--nothings happening and no 
progress. It's, as you said, they haven't fulfilled 
commitments, they haven't done the things that need to be done.
    But, in the end, we ultimately got to get back to the 
question not being asked here, is what's the consequence of the 
course of action that we next take? So, if there is, you know, 
those say that, well, we need to withdraw and be out. At some 
point out, and that somehow we can operate in some other 
region. I thought you made reference to that. I'd suggest 
talking to General Petraeus about that. He has some very clear 
opinions about what we can do from base points in Kuwait, if 
they'll let us there.
    It's my colleagues who worry about the, you know, what is 
this doing in terms of the global battle against al-Qaeda. I 
have no doubt that were we to be out and al-Qaeda to come back 
and able to operate in that caliphate that they want to 
establish with Ramadi being the capital, that would have a 
grave consequence to us, in terms of our safety.
    And so, I hope out of this hearing we do a few things. One, 
I hope this continues to put pressure on the Iraqis, to say 
that we're not satisfied with their performance, that they're 
not meeting benchmarks. And there has to be at a certain point 
a cost of doing, for their failure to reach those.
    But then I also hope that we then step back a little bit 
and then have the discussion over the issue you raise, which 
is: What's our role? And then also: What's the consequence of 
whatever response we have to failure to meet benchmarks, 
failure to reconciliation? My optimism, my hope, and I'm an 
optimist, is that in spite of the weakness of Maliki, those 
around, not his advisors who I think are too caught in this 
sectarian mode, but the Baam Sauis and the Ometis and others, 
understand that if we were just to go, there would be a price 
to be paid.
    Mr. Walker. If I can, Senator. As I said at the outset of 
this hearing, we had a statutory responsibility to report on 
whether the 18 benchmarks were met or not met. We used our 
independent and professional judgment to say that was too 
stark. And, that we also would want to use partially met and 
circumstances where we felt that it was justified. Furthermore, 
we provided contextual sophistication through the comments and 
other information in the unclassified report, and a lot more in 
the classified report.
    I feel comfortable that our report, conclusions, and 
related recommendations are reasonable and appropriate as of 8/
30/2007. At the same time, I also believe, as I said, you have 
to look at where things stand, how are things trending, and 
what are the relevant importance of the different benchmarks, 
and what is the relative significance of the progress that has 
been made versus what remains to be made.
    And, the final analysis, I think what you have to do is 
weigh all that evidence and decide what should our commitment 
be from this point forward? And, what's our role, for how long, 
based on what desired outcomes?
    Senator Coleman. Thank you.
    Thank you, Mr. Chairman.
    Senator Kerry. I want to respond to something Senator 
Coleman said, but let me just say first of all, thank you, 
Comptroller Walker, for this analysis.
    Here's what I think is important and people can either 
accept or reject it. When the administration says there is 
satisfactory progress, that is an entirely subjective 
statement. It's a subjective statement because it is based on 
their own standard, an undeclared standard, measured against 
whatever their sense of progress is or isn't.
    It also has to be measured against all of their prior 
judgments and all of their prior statements regarding the 
``last throws of the insurgency'' to ``mission accomplished'' 
and a host of other things. So, I think we have a right to 
demand an analysis more based on accountancy, which you've 
given us. And I think it's appropriate that you've found this 
middle ground to say that you don't want to be completely over 
here or over here when that doesn't quite reflect something 
that may be happening, or so you've partially said.
    But what has to be underscored is that there are only a 
couple of categories that get partial credit. Most of them are 
in the end, just incomplete and they're nowhere down the road 
to progress. And, that is critical when measuring what our 
troops are being put at risk for, versus what is achievable.
    In the absence of this kind of political reconciliation, 
our troops are being thrown out there in the worst way. They 
can't create the dynamic of that Iraqi political 
reconciliation. Only Iraqi political leadership can. And, right 
now, a lot of us have trouble seeing what the dynamic is within 
that political leadership that is going to see them take the 
risks necessary to do it. We all hope they will, but we don't 
see what it is.
    But when Senator Coleman says on the one side we need to 
get the politics out of this and we all agree we do, but then 
says that we can't just leave this to al-Qaeda--I don't know 
anybody who's proposed leaving it to al-Qaeda. Let's not debate 
red herrings and straw men here. That's a straw man debate.
    In the proposal I drafted and proposed and that we voted on 
a year ago and again a couple times this last year, we 
specifically said that the President has the discretion to 
leave what troops are necessary to combat al-Qaeda. Nobody has 
talked about leaving Iraq to al-Qaeda.
    Second, we said you've got to complete the job of training 
Iraqi forces so they can stand up for themselves and so that 
our interests in the region can be met. So, the real debate--
and here I agree with Senator Coleman--is what's the role of 
our troops in this regard? I am convinced, as I have been for 
some period of time, that it is not to go chasing around the 
streets acting as police officers and in an obvious military 
role as occupiers. That is something the Iraqis have to do more 
rapidly. We do have a test case, as Senator Lugar noted. It has 
been presented to us by the British because they have pulled 
back into a sort of enclave status, which some of us have 
suggested may have been the appropriate status some time ago in 
Iraq. And, we'll see what happens with militia in that region. 
We'll see what happens, particularly since it's a predominantly 
Shia region. And, it will be interesting to see how that is 
resolved.
    So, there's a lot on the table here, but I want to debate 
the real debate, which is not who in America wants to fight al-
Qaeda--
everybody does. We're still determined to win that battle and, 
I'm convinced we can and will. And, we will largely, because in 
the end, we'll work out the kinds of accommodations we did with 
tribal leaders in Anbar who will see a different interest. 
While it may not be their ultimate interest, it is their 
immediate interest. And, we will be able to satisfy those 
immediate interests.
    The larger question is what we're going to do about the 
bigger picture in the region, and that really involves our 
role. And, also another thing Senator Lugar, again, for 4 years 
I've been talking about trying to put together a standing 
regional conference. And here, Senator Lugar, one of the most 
learned and experienced people on this committee and in the 
Senate on these issues, who is lamenting the absence of that 
kind of standing diplomatic effort, where you're talking to 
people not once every fly-by few months or at some standing 
meeting of the region or a special meeting Sharm al-Sheikh, 
where people come and then they go. I'm talking about a 
constant process working toward the resolution of the issues of 
that region. And, I've talked to enough leaders in the region, 
all of whom have seconded the need for that kind of ongoing 
effort, as did previously, Kofi Annan at the United Nations, 
and now Secretary General Ban. So, I think we should take a 
leadership role in that regard. And hopefully, this committee 
can play a role in getting us there.
    So, thank you, Mr. Walker, for being here today and for 
your excellent report. It's not going to answer all the 
questions, but it certainly is going to help us understand 
where we are with respect to the benchmarks, which is what we 
wanted to know. And, I think we'll have a better understanding 
of where those benchmarks stand, with respect to the larger 
issues that need to be resolved here. So, we thank you for the 
work, we thank your staff, and we hope you'll convey to them 
our appreciation for the good work. And, we look forward to 
continuing our relationship. Thank you, sir.
    Mr. Walker. Thank you, Senator.
    Senator Kerry. We stand adjourned.
    [Whereupon, at 4:30 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


 Responses of David M. Walker to Questions Submitted for the Record by 
                        Senator Richard G. Lugar

    Question. In GAO's review of the benchmarks, and the other Iraq 
work you have engaged in with respect to the Joint Campaign Plan--are 
you aware of any comprehensive (integrated, interagency) planning being 
done with respect to a transition in mission or redeployment of U.S. 
combat forces; what some might call a plan B or a sequel to the surge?

    Answer. Yes, we are aware of such planning. GAO is attempting to 
obtain more information on these plans as part of our reviews of the 
Joint Campaign Plan (GAO code 320461) and U.S. Drawdown Plans (GAO code 
351092).

    Question. What do you understand to be U.S. strategic goals in 
Iraq? Are they achievable? Do these benchmarks reflect proper 
measurements toward U.S. goals?

    Answer. The administration's current stated strategic goal in Iraq 
is establishing a unified, democratic federal Iraq that can govern 
itself, defend itself, and sustain itself, and be an ally in the war on 
terror. These goals were articulated in the NSC's November 2005 
National Strategy for Victory in Iraq and also in the NSC's January 
2007 Iraq strategy review. However, it remains to be seen whether these 
goals are fully achievable given the enormous political, economic, and 
security challenges currently facing Iraq. The benchmarks can be used 
to help measure progress toward meeting some goals, such as national 
reconciliation and improved security. Importantly, the Joint Campaign 
Plan, a classified document, provides more detailed information on U.S. 
goals and metrics for progress in meeting these goals.

    Question. The chart on the legislative progress and process is very 
helpful, as is your description of the real challenges the Parliament 
is facing. Beyond that do you have sense of the capacity of the Iraqi 
bureaucracy at various levels of government to implement these laws if 
they pass?

    Answer. The Iraqi bureaucracy will be challenged in implementing 
these laws if they pass. As we recently reported in our October 4, 
2007, report on Iraqi ministry capacity,\1\ Iraq's ministries face many 
challenges to carrying out their basic functions.
---------------------------------------------------------------------------
    \1\ See GAO, ``Stabilizing and Rebuilding Iraq: U.S. Ministry 
Capacity Development Efforts Need an Overall Integrated Strategy to 
Guide Efforts and Manage Risk,'' GAO-08-117 (Washington, DC: Oct. 4, 
2007).

  <bullet> First, Iraqi ministries have significant shortages of 
        competent personnel with the skills necessary to perform key 
        tasks, such as the skills necessary to formulate budgets and 
        procure goods and services.
  <bullet> Second, Iraqi efforts to build a nonpartisan civil service 
        are complicated by partisan influence over the leadership and 
        staffing of the ministries.
  <bullet> Third, corruption impedes the effectiveness of U.S. efforts 
        to develop ministry capacity.
  <bullet> Fourth, poor security conditions limit U.S. advisors' access 
        to Iraqi ministries, threaten Iraqi Government workers, and 
        cause many to flee the country.

    Question. The White House reported in July that progress was met on 
benchmark No. 17. You disagree. Nevertheless, has the increased 
emphasis on spending helped the Iraqi Government improve its 
credibility with citizens through improved delivery of essential public 
services and tangible infrastructure development?

    Answer. While the Iraqi Government has improved capital budget 
spending at the central and provincial levels, it is too early to judge 
whether this spending has resulted in the improved delivery of 
essential public services and tangible infrastructure development. As 
our past work has shown, the Iraqi Government has had longstanding 
difficulties in providing essential public services, such as fuel, 
water, and electricity, to the Iraqi people on a reliable basis. For 
example, the U.S. goal for electrical peak generation capacity is 6,000 
megawatts (mw); however, electricity in Iraq averaged 4,280 mw of peak 
generation per day in 2006, about 3,950 mw short of demand in 2006. The 
Iraqi Government projects that it will not be able to fully meet the 
demand for electricity until 2009. However, these projections assume 
that the Ministry of Electricity will be assured of a stable supply of 
the fuel needed for electricity generation, which has been lacking in 
the past due to poor coordination between the Oil and Electricity 
Ministries. Overall, billions of dollars will be needed to help restore 
key sectors and meet U.S. and Iraqi reconstruction goals.

    Question. You say benchmark No. 18 is ``not met.'' Combined with 
No. 11 and No. 12, I see them as measures of what I will call 
``political cover for militia activities.'' What else did you find in 
your review? Is there any progress there that could spell 
accommodation? Backsliding?

    Answer. According to DOD, a central focus is to transcend regional, 
sectarian, and tribal divisions by bringing reconcilable elements into 
a process of accommodation and by isolating irreconcilable groups. 
However, in its September 2007 benchmark assessment, the administration 
stated that there is evidence of political officials attempting to 
limit the effectiveness of independent Iraqi operations against Shia 
extremists. As noted in our September 2007 benchmark report, militia 
infiltration of security forces remains a problem in Iraq. Numerous 
U.S. and U.N. reports have stated that militias still retain 
significant control or influence over local security in parts of 
Baghdad and other areas of Iraq. For example, in July 2007, the 
administration reported that militia presence is still strong and will 
likely remain so until the security situation begins to stabilize. The 
report stated that the Iraqi Government has made unsatisfactory 
progress toward eliminating militia control of local security, which 
continues to negatively affect the public perception of the authority 
and fairness of the Iraqi Government. In addition, DOD's June 2007 
Measuring Stability and Security report to Congress called militia 
influence of local police a significant problem and added that some 
security forces remain prone to intimidation by, or collusion with, 
criminal gangs. In its September 2007 Measuring Stability and Security 
report, DOD stated that Shia militia control over significant portions 
of southern Iraq and Baghdad competes with legitimate Iraqi forces for 
popular trust, and in some cases, causes increases in sectarian 
behavior by these security forces. Specifically, in Basrah, various 
rival Shia militias, factions, tribes, and criminal organizations 
aligned with political parties are positioning themselves for greater 
influence over local authorities and resources. Further, the current 
security environment and the infiltration of Shia militia groups within 
the Ministry of Interior continue to be the main impediment to 
effective, nonsectarian operations. Further, the Department of State's 
human rights report characterized Iraqi police effectiveness as 
seriously compromised by militias and sectarianism, rampant corruption, 
and a culture of impunity.

    Question. Along the same lines, to what extent does sectarian bias 
exist in the appointment of senior military and police commanders? How 
many National Police Brigade Commanders and battalion commanders have 
been relieved in 2006 and 2007 due to concerns over sectarian 
activities?

    Answer. According to the administration's September 14, 2007, 
benchmark report, since the start of this year, all division 
commanders, all brigade commanders, and 17 of 27 battalion commanders 
in the National Police were relieved of duty due to allegations of 
sectarian activity. In addition, a former Police Division Commander was 
reassigned due to serious allegations and has since been removed from 
his follow-on assignment as well. This is a signal that the Government 
of Iraq is committed to taking action with regard to sectarian bias. 
While the recent interventions by the Prime Minister and other 
government officials to curb sectarian bias are encouraging, the fear 
of being replaced for political or sectarian reasons remains and 
continues to influence commanders' decisions on which operations to 
undertake. Despite these actions, the National Police is widely 
perceived as highly sectarian. In addition, the administration's 
September assessment also stated that questionable judicial warrants by 
the Office of the Commander in Chief (which reports directly to the 
Prime Minister) have been used to try to replace Sunni officers who 
demonstrated effectiveness against Jaysh al-Mandi operations in Baghdad 
and in the southern provinces. In Muthanna province, evidence exists 
that Ministry of Interior officials have used de-Baathification laws to 
replace effective Sunni police officers with Shia officers. JAM-
associated Ministry of Interior officials continue to exert such a 
significant influence over the Basra Police that the new Basra 
Provincial Director of Police raised this issue at a meeting with the 
Ministerial Council on National Security. Further, while the National 
Police leadership has proposed that the composition of the National 
Police be 45 percent Sunni and 55 percent Shia, the Office of the 
Commander in Chief has proposed that it be 1 percent Sunni and 99 
percent Shia.

    Question. What level of involvement do Iraqis have in planning 
changes in U.S. missions? What missions have they asked for our help 
in?

    Answer. At the strategic level, the Government of Iraq has 
requested the presence of the U.S.-led Multinational Force-Iraq (MNF-I) 
and has agreed to MNF-I's authorities and missions for securing Iraq as 
specified in UNSCR 1723 (Nov. 2006). This mandate ends December 31, 
2007. For MNF-I to continue operations in Iraq after that date, the 
Government of Iraq must agree to new authorities and missions.
    At the operational level, the Government of Iraq also participates 
in decisions to transfer security missions and responsibilities from 
MNF-I to Iraqi provincial governments during the Provincial Iraqi 
Control process. As Iraqis take on more responsibility for security, 
coalition forces move into supporting roles, while maintaining 
sufficient forces on the ground to help Iraq consolidate and secure its 
gains. As part of the Joint Committee to Transfer Security 
Responsibility, the Iraqi Ministries of Defense and Interior have 
worked with MNF-I and the U.S. and U.K. Embassies to develop criteria 
to guide the transfer of security responsibility to Iraq. This 
committee conducts monthly assessments of provinces and provincial 
capitals to assess their readiness to have security responsibilities 
transferred to them. Once a decision is made to do this, the committee 
provides transition directives, develops a public affairs plan, and 
arranges a post-transfer security agreement between MNF-I and 
provincial governors.

    Question. What did you observe with respect to the U.S. ability to 
implement projects, especially given security restrictions on travel 
outside the Green Zone and other protected zones? Is there any 
improvement?

    Answer. The U.S. reconstruction effort was predicated on the 
assumption that a permissive security environment would exist. However, 
since June 2003, overall security conditions in Iraq have deteriorated 
and grown more complex. As detailed in our May 2007 report on Iraq's 
energy sector, the deteriorating security environment continues to pose 
a serious challenge to Iraq's reconstruction activities and has, in 
part, led to project delays and increased costs. For example, 
insurgents have destroyed key oil and electricity infrastructure, 
threatened workers, compromised the transport of materials, and 
hindered project completion and repairs by preventing access to work 
sites. Moreover, looting and vandalism have continued since 2003. U.S. 
officials reported that major oil pipelines in the north continue to be 
sabotaged, shutting down oil exports and resulting in lost revenues. 
Major electrical transmission and fuel lines also have been repeatedly 
sabotaged, cutting power to other parts of the country. According to 
Ministry of Electricity and U.S. officials, workers are frequently 
intimidated by anticoalition forces and have difficulty repairing 
downed lines. Poor security remains a problem today.

    Question. With mixed assessments of security improvements, can you 
think of better metrics we should be monitoring?

    Answer. The present metrics are sufficient for measuring broad 
trends in Iraq's security situation. As discussed in our September 2007 
report, ``DOD Should Provide Congress and the American Public with 
Monthly Data on Enemy-Initiated Attacks in Iraq in a Timely Manner'' 
(GAO-07-12048R), enemy-initiated attacks data are a key indicator of 
progress in improving Iraq's security situation, an important condition 
that, according to the administration, must be met before the United 
States can reduce its military presence in Iraq. While attacks data 
alone may not provide a complete picture of Iraq's security situation, 
Department of Defense (DOD) and Multinational Force-Iraq (MNF-I) 
officials state that the data provide a reasonably sound depiction of 
general security trends in the country. Since 2004, we have 
periodically provided this information to Congress in classified and 
unclassified briefings, reports, and testimonies. The Joint Campaign 
Plan provides additional metrics for measuring progress in Iraq's 
security situation.

                                  <all>

</pre></body></html>
